 U.S. Department of Transportation | Office of Inspector General


semiannual report
                                     to congress
                  O C TO B E R 1 , 2 0 1 3 - M A R C H 31, 2014
TABLE OF CONTENTS



FROM THE INSPECTOR GENERAL .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3

AUDITS AND INVESTIGATIONS .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7
                 Aviation .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7
                 Highway and Transit .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 15
                 Rail, Maritime, Hazmat Transport, and Economic Analysis .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 29
                 Financial and Information Technology  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 34
                 In Focus: The Virtual World of the Computer Crimes Unit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38
                 Acquisition and Procurement .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 41
                 In Focus: Strengthening Oversight of DOT’s Disadvantaged Business Enterprise Program .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 46
                 Departmentwide Issues  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 49

OTHER ACCOMPLISHMENTS .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 51

WORK PLANNED AND IN PROGRESS  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 54
                 Aviation .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 54
                 Highway and Transit .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 63
                 Rail, Maritime, Hazmat Transport, and Economic Analysis .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 67
                 Financial and Information Technology  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 69
                 Acquisition and Procurement .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 73

STATISTICAL PERFORMANCE DATA .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 78
                 Summary of Performance  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 78
                 Audits .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 79
                 Investigations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 98

PEER REVIEW .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 104

MISSION AND ORGANIZATION .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 106

CONTACTS .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 108




                                                                                                                                                                Semiannual Report to Congress  |  1
2  |  From the Inspector Gener al
FR OM THE INSPEC TOR GENER AL



I am pleased to present the Department of Transportation (DOT) Office of Inspector General’s (OIG)
Semiannual Report to Congress for the first half of fiscal year 2014. Our audits and investigations
support the Department’s strategic goals of safety, livable communities, economic competiveness,
environmental sustainability, and state of good repair. Over the past 6 months, we issued 32 audit
reports with a total of 114 recommendations, including financial recommendations totaling over
$532 million. Our investigative work resulted in 34 indictments, 39 convictions, and a total of more
than $1.3 billion in fines, restitutions, recoveries, and forfeitures.

Our aviation work this period continued to identify opportunities to improve safety and achieve
savings in the Federal Aviation Administration’s (FAA) management of the Nation’s airspace and
oversight of the aviation industry. We reported concerns regarding FAA’s certification processes,
safety data analysis, and data collection on flight delays and their causes. We also remain committed
to protecting U.S. investments in FAA’s multibillion-dollar Next Generation Air Transportation System
(NextGen) and to ensuring the future viability of the National Airspace System. Our investigations
continued to aggressively pursue individuals who compromise safety by falsifying aircraft parts
records, tests, and repairs; flying while under the influence of alcohol; illegally piloting aircraft; and
attempting to transport prohibited hazardous materials on passenger and other aircraft.

Our highway and transit work also identified areas where action is needed to ensure safety while
protecting Federal investments. Our investigations targeted individuals intent on defrauding the
Government out of millions of dollars, including funding provided through the American Recovery
and Reinvestment Act (ARRA) of 2009, DOT’s disadvantaged business enterprise (DBE) program,
and National Highway Traffic Safety Administration (NHTSA) grant funds. Our investigations also
continued to provide the evidence needed to prosecute commercial drivers who operate illegally
and endanger the Nation’s highways. In the area of vehicle safety, our investigators participated in
the criminal probe of Toyota Motor Corporation, which recently forfeited $1.2 billion for intentionally
concealing information on vehicle defects from NHTSA. Our highway and transit audits similarly
found opportunities to enhance safety through improved capacity to inspect buses at the U.S.-




                                                    Semiannual Report to Congress  |  3
Mexico border, and better State-reported data for identifying unsafe motor carriers. Our audits
also identified opportunities to strengthen oversight of the Federal Transit Administration’s (FTA)
$10 billion for Hurricane Sandy-related repair and recovery efforts, and the Federal Highway
Administration’s (FHWA) $3.5‑billion Tribal Transportation Program.

Our rail work continued to focus on the Federal Railroad Administration’s (FRA) efforts to comply
with the National Environmental Policy Act and to develop the Nation’s first integrated rail plan, as
required by the Passenger Rail Investment and Improvement Act of 2008. Our hazmat transport
investigations uncovered violations of pipeline safety laws and illegal transport of explosives and
hazardous waste, the latter of which resulted in an explosion at a home improvement retail store.

Our financial and information technology (IT) audits continued to identify significant vulnerabilities
in DOT’s $3.3 billion IT portfolio. Ongoing security risks continue to threaten the Department’s IT
systems—both departmentwide and within specific programs—and remains a top management
challenge for the Department. Closing security gaps in DOT’s information systems is critical for
ensuring the Nation’s transportation systems are safe and for protecting Federal dollars from waste
and fraud.




  6                           1.33b                                         532.4m
                           $                                             $

                            in fines, restitution, recoveries,              in financial
   months                   and forfeitures                                 recommendations




4  |  From the Inspector Gener al
 Ensuring effective management of DOT’s acquisitions and contracts to maximize value and program
 performance also remains a top management challenge for the Department. Our acquisition and
 procurement audits have identified actions needed to reduce spending on DOT’s management
 support services contracts and ensure that FAA can achieve its air traffic controller training goals.
 Finally, we reported on weaknesses in the Metropolitan Washington Airports Authority’s controls for
 managing $975 million in Federal funds for FTA’s Dulles Corridor Metrorail Project.

 Our work consistently reflects our commitment to fully inform Congress, the Department, and
 the public of pressing transportation concerns and to aggressively pursue individuals intent on
 defrauding the Government. I commend and thank our hard-working staff for their outstanding
 efforts and dedication to our critical mission. I would also like to thank Secretary Foxx for his
 strong leadership. I look forward to continuing to work with the Secretary, his team, and the modal
 administrators to provide Americans with a safe transportation system that meets the national
 objectives of general welfare, economic growth and stability, and security.




 Calvin L. Scovel III
 April 25, 2014




32                            114                              34                          39
audit reports               recommendations                   indictments                  convictions
issued




                                                  Semiannual Report to Congress  |  5
                      AVIATION
        OIG’s aviation work emphasizes safety and economy through audits of air
      traffic control operations, acquisition and modernization of assets, program
     oversight, and customer service, and through investigations of counterfeit and
      substandard aircraft parts, falsified maintenance records, and fraudulent pilot
                               and mechanic certifications.




6  |  Audits and Investigations
AUDITS AND INVESTIGATIONS
AV I AT I O N
Audits

October 30, 2013                                             December 18, 2013

FAA Can Improve the                                          FAA’s Safety Data Analysis
Effectiveness and Efficiency                                 and Sharing System Shows
of Its Certification Processes                               Progress, but More Advanced
Testimony Before the House Transportation and
                                                             Capabilities and Inspector
Infrastructure Subcommittee on Aviation                      Access Remain Limited
The Assistant Inspector General for Aviation testified       Required by the Airline Safety and FAA
on several management and oversight weaknesses               Extension Act of 2010
that have hindered the effectiveness and efficiency
                                                             In 2007, FAA implemented the Aviation Safety
of FAA’s certification processes. First, vulnerabilities
                                                             Information Analysis and Sharing (ASIAS) system
in FAA’s oversight of its Organization Designation
                                                             in an effort to proactively identify and address
Authorization program—which assigns organizations
                                                             safety risks that may lead to accidents. Through
authority to certify aircraft or components on the
                                                             ASIAS, FAA collects and analyzes safety data from
Agency’s behalf—increased the risk that individuals
                                                             multiple public and confidential databases, such
without proper training or qualifications or with
                                                             as data from airline voluntary safety reporting
known performance problems could approve
                                                             programs. Congress directed us to assess FAA’s
critical aircraft components. Second, issues with
                                                             ability to establish a system such as ASIAS that can
FAA’s approval process, resource management, and
                                                             accommodate multiple data sources and also be
communication from Headquarters have led to a
                                                             accessible to FAA safety inspectors and analysts
backlog of more than 1,000 aircraft operators and
                                                             who oversee air carriers. While ASIAS now captures
repair stations awaiting certification. Finally, these
                                                             confidential voluntary safety data from 95 percent
weaknesses will be exacerbated by the growing
                                                             of Part 121 operations, it does not capture data from
demand for certifying technology and procedures
                                                             non-commercial sectors of the aviation industry,
for NextGen and the need to establish certification
                                                             and FAA’s planned use of the data to predict safety
standards to safely integrate unmanned aircraft
                                                             risks is still years away. In addition, we found that
systems (UAS) into the National Airspace System.
                                                             FAA does not allow its inspectors and analysts to
                                                             use ASIAS’s confidential data for air carrier oversight
                                                             due to complex data protection agreements.
                                                             Although many of the inspectors we surveyed
                                                             stated that access to national-level trends from
                                                             voluntary safety programs would improve air carrier




                                                           Semiannual Report to Congress  |  7
Audits

oversight, FAA has not disseminated these data and      and the number of cancellations nationwide has
safety trends to the field. FAA concurred with our      decreased by 56 percent at 55 major airports. Air
four recommendations to enhance the Agency’s            carrier scheduling practices have had a major
policies and processes for accessing and using ASIAS    impact on reducing the number of flight delays
information.                                            both nationwide and at specific airports, such
                                                        as by increasing scheduled gate-to-gate times
                                                        and reducing flight volume. However, further
December 18, 2013                                       enhancements are needed to provide the public
More Comprehensive Data                                 with more complete information and to assist
                                                        aviation stakeholders in identifying the root causes
Are Needed To Better                                    of delays. Over-scheduling and congestion remain
Understand the Nation’s                                 problems at several major airports, particularly in
Flight Delays and Their                                 the New York area. FAA’s capacity benchmarks have
                                                        proven useful for assessing capacity needs at major
Causes                                                  airports, but the Agency has not shared them with
Required by the FAA Modernization and Reform            outside stakeholders and the general public since
Act of 2012                                             2004.

In response to recommendations we made in July          The Office of the Secretary of Transportation (OST),
2000, both FAA and the Bureau of Transportation         FAA, and the Research and Innovative Technology
Statistics significantly improved their processes for   Administration (now the Office of the Assistant
collecting data on flight delays and their causes.      Secretary for Research and Technology) concurred
Although trends in flight delays, cancellations,        with three and partially concurred with two of
and long taxi times have significantly improved         our recommendations to improve the collection,
over the last decade, data limitations hinder           reporting, and communication of flight delay and
the Department’s ability to track some of these         other related data.
delays or fully understand their causes. Overall,
flight delays fell by 33 percent from 2000 to 2012,




8  |  Audits and Investigations
Audits

January 28, 2014                                        February 5, 2014

FAA Made Limited Progress                               FAA’s Implementation of the
in Implementing NextGen                                 FAA Modernization and
Provisions of the FAA                                   Reform Act of 2012 Remains
Modernization and Reform                                Incomplete
Act of 2012                                             Testimony Before the House Transportation and
                                                        Infrastructure Subcommittee on Aviation
Requested by the Chairmen and Ranking Member
of the House Transportation and Infrastructure
Subcommittee on Aviation                                The Inspector General testified on FAA’s progress
                                                        in implementing key provisions of the FAA
Title II of the FAA Modernization and Reform Act of     Modernization and Reform Act of 2012. The
2012 includes 24 provisions intended to help FAA        Inspector General stated that while FAA has made
better manage and advance NextGen and other             progress implementing provisions of the act,
modernization efforts. As of August 2013, FAA had       significant actions are needed to meet the act’s
implemented or was on target to implement about         intent and improve the execution and management
half of these provisions. However, FAA has yet to       of its programs. First, the Inspector General noted
implement several provisions that are important         that FAA has yet to meet provisions intended to
for achieving NextGen’s benefits. Longstanding          expedite an important element of the Automatic
programmatic and organizational challenges—             Dependent Surveillance Broadcast (ADS-B) program,
including technical complexity; collaboration with      the core for shifting from today’s ground-based
other Government and aviation stakeholders; and         radar to NextGen’s satellite-based systems. He also
financial concerns, such as meeting the provisions      pointed to other underlying programmatic and
of the Budget Control Act of 2011—have hindered         organizational challenges that continue to impact
FAA’s efforts to fully meet the act’s provisions.       FAA’s ability to deliver NextGen capabilities as
FAA concurred with our two recommendations to           planned. Second, the Inspector General noted that
provide more information to Congress and other          FAA has determined that it will not meet the act’s
stakeholders regarding its progress in meeting the      deadline for integration of UAS into the Nation’s
act’s Title II provisions.                              airspace. Finally, the Inspector General stated
                                                        that FAA has not maximized use of its aviation
                                                        safety inspector workforce or developed metrics
                                                        to determine whether its new air traffic controller
                                                        scheduling policies will reduce controller fatigue.




                                                      Semiannual Report to Congress  |  9
Audits

February 25, 2014                                     this progress, the EA’s usefulness has been limited
                                                      due to incomplete information, a lack of policy
Addressing Underlying                                 and guidance, and unresolved NextGen design
Causes for NextGen Delays                             decisions. Longstanding programmatic and
Will Require Sustained FAA                            organizational challenges further undermine
                                                      NextGen’s progress, including the lack of an
Leadership and Action                                 executable plan, delays in fielding foundational
Requested by the Chairmen and Ranking Members         air traffic management hardware and software,
of the House Transportation and Infrastructure        frequent changes in senior leadership, and an
Subcommittee on Aviation                              industry that remains reluctant to invest in NextGen.
                                                      FAA recently elevated its NextGen office, but it is
Over the past 8 years, FAA has been working to        too early to tell whether this reorganization better
develop NextGen—a multibillion-dollar program         positions the Agency to meet its NextGen goal—in
intended to fundamentally transform the Nation’s      part because FAA has been slow to fill leadership
air traffic system. FAA manages this transformation   positions and implement best practices.
in part through its Enterprise Architecture (EA)
plan—a key strategic planning tool that details the   We made six recommendations to FAA to provide
numerous integration and investment decisions         greater visibility into critical NextGen decisions and
required to advance NextGen. While FAA is making      to assist in achieving a successful reorganization.
progress with elements of NextGen, we continue        FAA concurred with four and partially concurred
to find longstanding problems with cost increases,    with two. Based on FAA’s response, we are
schedule slips, and performance shortfalls.           requesting additional information on four
                                                      recommendations.
From January 2009 through May 2013, FAA made
157 NextGen-related decisions in its EA. Despite




10  |  Audits and Investigations
Investigations

October 22, 2013                                         Our investigation disclosed that from the mid-1990s
                                                         until 2007, Weco falsified test results at its FAA-
Former Aircr aft Parts                                   certificated repair stations in Lincoln and Burbank,
Salesman Sentenced for                                   CA. Weco employees at both repair stations failed
Falsifying Aircr aft Parts                               to follow FAA regulations and the manufacturer’s
                                                         Component Maintenance Manual (CMM), a step-
Records                                                  by-step guide for conducting proper repairs and
                                                         overhaul of aircraft parts. In many cases, Weco
In Tarrant County District Court, Fort Worth,
                                                         did not have the equipment needed to perform
TX, Ronald Shabbot pleaded guilty to falsifying
                                                         some required tests. However, Weco employees
a Government record and was sentenced to
                                                         performed repairs and returned parts to customers,
24 months probation. While working as a salesman
                                                         falsely certifying that their parts had been repaired
at an aircraft parts repair facility in Fort Worth,
                                                         in accordance with CMM. Evidence showed that
Shabbot stole an aircraft computer indicator from
                                                         Weygandt was aware of equipment needs at the
inventory, then forged another repair facility’s
                                                         Lincoln and Burbank facilities but continued to
information on an FAA return-to-service tag,
                                                         operate Weco without taking steps to comply with
indicating the part was in good working order and
                                                         FAA regulations.
could be installed on an aircraft. Shabbot sold the
computer indicator on eBay.                              We are investigating this case jointly with the
                                                         Federal Bureau of Investigation (FBI) and the
                                                         Department of Homeland Security (DHS) OIG.
November 4, 2013

Former Aerospace Company                                 November 14, 2013
Owner Convicted for
Fr audulent Aircr aft Part                               Commercial Pilot Sentenced
Repairs                                                  for Flying an Aircr aft While
                                                         Under the Influence of
A Federal jury in U.S. District Court, Sacramento,       Alcohol
CA, found William Hugh Weygandt—former owner-
president of Weco Aerospace Systems Inc.—guilty of       Paul Roessler was sentenced in U.S. District Court,
conspiracy to commit fraud involving aircraft parts      Spokane, WA, for flying a commercial aircraft while
repair.                                                  under the influence of alcohol. He was sentenced to
                                                         4 months home confinement, 240 hours community




                                                      Semiannual Report to Congress  |  11
Investigations

service, and 2 years probation and ordered to attend       he was rated to fly the Gulfstream aircraft when he
substance abuse evaluation and counseling and to           was not.
pay a $1,500 fine.

The investigation disclosed that Roessler failed to        February 12, 2014
establish contact with FAA’s Seattle Air Route Traffic
Control Center and lined up for the wrong runway           Northern California
on approach. A breathalyzer test administered by           Aircr aft Mechanic and
the Spokane Airport police showed that Roessler’s          Repair Shop Owner Charged
alcohol concentration was more than twice the legal
limit.
                                                           With Aircr aft Parts Fr aud

We conducted this investigation with assistance            Randy Lee Thompson, owner of Thompson’s Air—an
from FAA.                                                  aircraft maintenance repair shop based in Anderson,
                                                           CA—was indicted in U.S. District Court, Sacramento,
                                                           CA, for fraud involving aircraft parts.
February 11, 2014
                                                           In 2010, Thompson installed a crankshaft on an
Florida Man Convicted for                                  aircraft’s engine that failed while the aircraft was in
Making False Statements to                                 flight. The pilot and his 9-year-old daughter made
                                                           an emergency landing, without injury, in the middle
FAA and Illegally Piloting an                              of a field in Pennsylvania. FAA later determined that
Aircr aft                                                  cracks found in the engine’s crankshaft caused the
                                                           emergency landing.
Reginald Wayne Sibley, Jr., owner of Intelijet Air Inc.,
pleaded guilty in U.S. District Court, Orlando, FL, to     Our investigation revealed that Thompson installed
making false statements to FAA and illegally piloting      the crankshaft after FAA-certificated repair stations
an aircraft.                                               returned the part to him in 2003 and in 2005 with a
                                                           tag documenting that the crankshaft was cracked
On June 1, 2009, Sibley stated on his FAA airman           and no longer suitable for use. The investigation
medical certification application that he did not          also found that Thompson falsified an FAA Form 337
have a criminal history even though he had at              when he represented that the repair and alteration
least three criminal convictions. Our investigation        of the crankshaft was done in compliance with
also revealed that on October 8, 2009, Sibley was          FAA regulations and the engine manufacturer’s
pilot in command of a Gulfstream aircraft that flew        specifications.
from Orlando Executive Airport to California. After
landing, Sibley stated to an FAA representative that




12  |  Audits and Investigations
Investigations

We conducted this investigation jointly with the FBI,      We conducted this investigation jointly with the FBI,
with assistance from FAA.                                  with assistance from FAA.

Note: Indictments, informations, and criminal
complaints are only accusations by the Government.         March 31, 2014
All defendants are presumed innocent unless and until
proven guilty.                                             Southern California
                                                           Company Pleads Guilty to
February 21, 2014                                          Fr aud Involving Aircr aft
                                                           Parts
California Man Sentenced
for Endangering the Safety                                 VJ Engineering Inc. (VJE) pleaded guilty in U.S.
                                                           District Court, Santa Ana, CA, to fraud involving
of an Aircr aft                                            aircraft parts. Specifically, VJE was charged with
Hasan Ibrahim, owner of Medchem, was sentenced             making a false statement on a certificate of
in U.S. District Court, San Francisco, CA, to 30 days      conformance for commercial aviation parts and
in prison followed by 3 years supervised release.          with providing a false certificate of tests to the
Ibrahim was also assessed a penalty of $2,200.             Department of Defense (DOD) for parts shipped to
Ibrahim was convicted in July 2013 for attempted           the U.S. Air Force.
placement of destructive substance on an aircraft,         VJE submitted certificates that falsely claimed
transportation of hazardous materials without              aircraft parts were in conformance with
shipping papers, transportation of hazardous               requirements, specifications and drawings as
materials without labels, failure to file export           approved by FAA and DOD when they were not.
information, and attempted smuggling of goods.             According to the commercial manufacturer,
Our investigation revealed that Ibrahim attempted          the parts were structural and carried flight and
to ship 64 boxes containing hazardous materials to         emergency loads. If the parts failed, objects could
Jeddah, Saudi Arabia. The shipment was detained            have loosened during a landing or crash and caused
and later seized by Customs and Border Protection.         injuries.
Transportation of several of the materials was             We are conducting this investigation jointly with the
prohibited on passenger aircraft, and transportation       DOD Criminal Investigative Service, DHS, FBI, and
of two chemicals was prohibited on any aircraft.           Army Criminal Investigation Division (CID).




                                                        Semiannual Report to Congress  |  13
             highway and
                transit
     OIG’s highway and transit work emphasizes safety and economy through audits
      of Federal infrastructure programs, highway safety efforts, and motor carrier
       oversight programs, and through investigations of fraudulent commercial
      drivers licenses, drivers’ logs, and truck and bus maintenance records, as well
      as household goods fraud schemes, contracting and anti-trust violations, and
                     disadvantaged business enterprise (DBE) fraud.




14  |  Audits and Investigations
AUDITS AND INVESTIGATIONS
H I G H WAY A N D T R A N S I T
Audits

October 30, 2013                                          November 26, 2013

Opportunities Exist                                       Improvements Needed in
To Strengthen FHWA’s                                      FMCSA’s Plan for Inspecting
Coordination, Guidance,                                   Buses at the United States-
and Oversight of the Tribal                               Mexico Border
Tr ansportation Progr am                                  Required by Section 350(c) of the Department of
                                                          Transportation and Related Agencies Appropriations
Self-initiated
                                                          Act of 2002

The Federal Highway Administration’s (FHWA)
                                                          Under the 1994 North American Free Trade
Tribal Transportation Program (TTP) provides
                                                          Agreement (NAFTA), the United States and Mexico
funding for projects that support safe and adequate
                                                          agreed to long-haul, cross-border transportation of
transportation and public road access to and within
                                                          cargo and passengers. Section 350(c) of the 2002
tribal lands and Alaska Native Villages. From fiscal
                                                          appropriations act requires our office to verify that
years 2005 through 2012, TTP received about $3.5
                                                          the Federal Motor Carrier Safety Administration
billion in congressional appropriations, including
                                                          (FMCSA) has complied with cross-border safety
$310 million provided by the American Recovery
                                                          requirements before vehicles owned or leased by
and Reinvestment Act of 2009 (ARRA). FHWA’s
                                                          Mexican motor carriers can operate beyond U.S.
Office of Federal Lands Highways (FLH) and the
                                                          border commercial zones. FMCSA’s staffing, facilities,
Department of Interior’s Bureau of Indian Affairs
                                                          equipment, and procedures to conduct inspections
(BIA) jointly administer and oversee TTP. While
                                                          of Mexico-domiciled carriers, vehicles, and drivers
they routinely coordinate on TTP areas, FLH and
                                                          generally comply with the act’s requirements.
BIA have opportunities to improve coordination
                                                          FMCSA had a backlog of conviction data on
on National Environmental Policy Act approvals
                                                          Mexican drivers due to a computer software issue,
and final acceptance of TTP projects. In addition,
                                                          but it has fixed the problems, and no drivers had
FLH lacks sufficient data to identify each tribe’s
                                                          to be disqualified after convictions were posted.
program risks and needs. Finally, TTP is governed
                                                          In addition, FMCSA has taken steps to improve
by an outdated regulation and unclear guidance
                                                          passenger carrier safety at the border. However, it
on how to implement the regulation in areas such
                                                          has not taken sufficient action to address our prior
as allowable uses of funds. FLH concurred with our
                                                          recommendations for improving its capacity to
seven recommendations aimed at strengthening
                                                          inspect buses. FMCSA updated its bus safety plan,
TTP program stewardship and oversight.
                                                          but the plan does not adequately address bus




                                                       Semiannual Report to Congress  |  15
Audits

inspection frequency or identify actions to eliminate    has opportunities to consider lessons learned from
inspection obstacles. FMCSA also worked with other       best practices for Federal emergency responses
agencies to identify alternative inspection space at     and acquisition that could help the Agency
certain locations but has not negotiated interagency     finalize its Emergency Relief Program and related
agreements with Customs and Border Protection            guidance. FTA concurred with eight of our nine
to establish standard bus inspection protocols or        recommendations to improve oversight of relief
completed facility and staffing assessments needed       funds and Emergency Relief Program guidance. We
to fully address inspection safety and efficiency        requested additional information regarding its plans
issues.                                                  for the remaining recommendation, which FTA
                                                         partially concurred with.
FMCSA concurred with our five recommendations
for improved implementation of the NAFTA cross-
border provisions and its bus safety plan.               March 5, 2014

                                                         Actions Needed To
December 3, 2013                                         Strengthen FMCSA’s
Initial Assessment of                                    Compliance, Safety,
FTA’s Oversight of the                                   Accountability Progr am
Emergency Relief Progr am                                Requested by the House Committee on Transportation
and Hurricane Sandy                                      and Infrastructure
Relief Funds                                             To improve commercial motor vehicle safety, FMCSA
Self-initiated                                           launched its Compliance, Safety, Accountability
                                                         (CSA) program nationwide at the end of 2010. CSA
The Disaster Relief Appropriations Act of 2013           is designed to target unsafe motor carriers through
provided over $10 billion to the Federal Transit         enforcement interventions such as roadside
Administration’s (FTA) Emergency Relief Program for      inspections and on-site reviews. To identify carriers
Hurricane Sandy-related repair and recovery efforts.     that pose high safety risks, FMCSA implemented the
While FTA’s early efforts have complied with the act’s   Carrier Safety Measurement System, which draws
requirements, more comprehensive oversight plans         on State and carrier data on carriers’ on-road safety
and procedures are needed to effectively allocate,       performance.
obligate, and oversee relief funds—including steps
to mitigate risks of improper payments. FTA also




16  |  Audits and Investigations
Audits                                                     Investigations

While FMCSA has strengthened its controls to               October 16, 2013
improve the quality of State-reported data used
to assess carriers’ safety performance, the Agency         Charges Filed Against Paving
has not fully implemented planned improvements             Company Employee in a DBE
to its processes for reviewing data correction             Fr aud Scheme
requests and for ensuring that carriers submit
accurate information. In addition, FMCSA has               Boggs Paving Inc.; Carl Boggs, III; Kevin Hicks; Greg
not fully implemented the CSA enforcement                  Miller; Greg Tucker; Styx Cuthbertson Trucking
intervention process nationwide; at the time of            Company Inc.; John Cuthbertson; and Arnold Mann
our report, only 10 States had fully implemented           were charged in U.S. District Court, Charlotte, NC,
CSA enforcement interventions. Finally, FMCSA              for their roles in a DBE fraud scheme involving over
has limited documentation demonstrating that               $87 million in federally and State-funded contracts.
it followed information technology (IT) best               This indictment supersedes an indictment filed in
practices and Federal guidance for its Carrier Safety      July 2013 and adds Mann as a defendant.
Measurement System. FMCSA concurred with our
six recommendations to strengthen CSA.                     The indictment alleges that beginning in 2003,
                                                           Boggs Paving fraudulently obtained contracts by
                                                           falsely certifying that Cuthbertson would perform
                                                           work as a DBE or a small business enterprise (SBE).
                                                           However, Boggs Paving used Cuthbertson as a pass-
                                                           through to obtain the contracts, and the majority of
                                                           the work was performed by Boggs Paving affiliates.

                                                           The indictment further alleges that a bank account
                                                           in Cuthbertson’s name was used to deposit DBE
                                                           and SBE payments to give the appearance that
                                                           they were receiving the payments. The account
                                                           was actually controlled by Boggs Paving, and the
                                                           majority of the payments were funneled back
                                                           to Boggs Paving affiliates. Additionally, Boggs
                                                           Paving made false and misleading statements to
                                                           the North Carolina Department of Transportation,
                                                           South Carolina Department of Transportation, and
                                                           other Federal-grant recipients on DBE applications,
                                                           renewal statements, and DBE payment certifications.




                                                        Semiannual Report to Congress  |  17
Investigations

Note: Indictments, informations, and criminal           We are conducting this investigation jointly with the
complaints are only accusations by the Government.      Dallas County Sheriff’s Office, with assistance from
All defendants are presumed innocent unless and until   NHTSA and the Texas Department of Transportation.
proven guilty.

                                                        October 24, 2013
October 17, 2013
                                                        New York Commercial
Former Dallas County                                    Drivers License Cheating
Deputy Sentenced in Tr affic                            Scheme Uncovered
Ticket Scheme Involving
                                                        In U.S. District Court, Brooklyn, NY, 11 defendants
NHTSA Gr ant Funds
                                                        were indicted for their roles in a widespread
Sherman McIntyre, former Dallas County Deputy           fraudulent commercial drivers license (CDL) test-
Sheriff, was sentenced in Dallas County Criminal        taking scheme. The investigation uncovered
Court, Dallas, TX, in conjunction with his plea to      fraudulent CDL test-taking activities at five
tampering with Government records. McIntyre was         Department of Motor Vehicles (DMV) test centers
sentenced to 12 months community supervision            in the New York metropolitan area, involving DMV
and ordered to pay a $1,000 fine. McIntyre was          security personnel. It is alleged that CDL applicants
also ordered to surrender his Texas police officer’s    paid the defendants between $1,800 to $2,500
license.                                                for CDL test answers and assistance with the DMV
                                                        process. To facilitate the scheme, defendants
McIntyre and two other deputies were indicted           provided CDL applicants with pencils containing
in Dallas County for submitting overtime                encoded test answers and Bluetooth headsets to
reimbursement requests containing false                 communicate test answers. The defendants also
information regarding times worked and numbers          acted as CDL test takers to help applicants during
of traffic citations issued in 2009, 2010, and 2011     the test.
while working overtime under the Selective Traffic
Enforcement Program (STEP), which is funded             The 11 indicted defendants are Marie Daniel,
through a NHTSA grant. During this investigation,       Joachim L. Pierre, Luc Desmangles, Tanael Daniel,
Dallas County has repaid NHTSA $214,030 in              Jose Payano, Dale Harper, Akmal Narzikulov, LaToya
ineligible costs.                                       Bourne, Beayaeh Kamara, Firdavs Mamadaliev, and
                                                        Inocente Rene Gonzalez.




18  |  Audits and Investigations
Investigations

We are conducting this investigation with assistance       We are conducting this investigation jointly with the
from DHS, New York Police Department, New York             FBI, with assistance from FMCSA.
City DMV Investigations, New York State Attorney
General’s Office, and New York State Inspector
General.                                                   November 14, 2013

Note: Indictments, informations, and criminal              President and Owner of New
complaints are only accusations by the Government.         York-Based DBE Contr actor
All defendants are presumed innocent unless and until      Sentenced for Role in Fr aud
proven guilty.
                                                           Scheme

November 1, 2013                                           Yona Jimenez, also known as Yona J. Bocchino,
                                                           president and owner of Global Marine Construction
Moving Company Owner                                       Supply (GMCS), was sentenced in U.S. District Court,
Pleads Guilty to Defr auding                               White Plains, NY, to 3 years supervised release
                                                           and forfeiture of $52,347. Jimenez was convicted
Customers                                                  for her role as a pass-through DBE purporting to
Yaron Roni Levin, owner of Movers USA/Golden               provide structural steel on the FHWA-funded Cross
Hand Movers, pleaded guilty to conspiracy to               Westchester Expressway Project.
commit wire fraud in U.S. District Court, Denver, CO.      Between June 2006 and October 2009, the general
Levin admitted to luring customers with low                contractor on the Cross Westchester Expressway
moving estimates, then fraudulently inflating the          Project claimed that it awarded GMCS a $6-million
price of transport after he had secured customers’         subcontract to supply structural steel to reconstruct
household goods. When customers refused or were            bridges, but another company (a non-DBE) actually
unable to pay, Levin refused delivery and often            supplied the steel. The general contractor then
threatened to auction their household goods until          claimed credit toward the DBE goal for the services
the inflated prices were paid.                             GMCS provided. The general contractor paid GMCS
                                                           approximately 1 percent of the subcontract value as
The investigation identified over 75 victims. Levin        a commission.
routinely doubled quoted estimates for average
increases of $2,000 to $5,000, although some               We are conducting this investigation jointly with
victims were charged as much as $10,000 over initial       the New York State Metropolitan Transportation
estimates.                                                 Authority OIG, and the Port Authority of New York
                                                           and New Jersey OIG.




                                                        Semiannual Report to Congress  |  19
Investigations

November 20, 2013                                       December 11, 2013

Georgia Woman Convicted                                 Guam Firm Sentenced for Its
of Mail Fr aud in Double                                Role in a Buy America Billing
Brokering Scheme                                        Scheme on a $1.8-Million
                                                        ARR A-Funded Project
Pauline Robinson-Kirkland, pleaded guilty in
U.S. District Court, Macon, GA, to mail fraud in        In the District Courts of Guam and the Northern
conjunction with her involvement in a double            Mariana Islands, Hubtec International Corp. was
brokering scheme.                                       sentenced to 5 years probation and ordered to
The investigation revealed that Robinson-Kirkland       pay restitution in the amount of $150,266 after
accessed Web sites where senders advertise loads        it admitted to devising a scheme to defraud the
of commercial freight for transport. She bid on the     Department of Public Works and FHWA by falsely
loads using the names of her various companies—         representing that it used U.S.-made reinforcement
which are listed with FMCSA as having broker            steel bars for an ARRA-funded project in Guam.
authority—and was awarded the contracts. She led        On June 27, 2013, Hubtec president and project
senders to believe that her trucking business would     manager, Young C. Kim, of Tamuning, Guam, was
deliver the freight for the contracted prices and the   sentenced to 2 years probation for his role in the
senders would remit payments to her at the agreed       scheme.
upon prices. However, after accepting the contracts,    In January 2010, Hubtec received a $1.8-million
Robinson-Kirkland re-advertised the jobs, using         contract for the reconstruction and rehabilitation
different company names. She then accepted bids         of highway culverts. The contract was funded in
from legitimate trucking companies and had them         part by $1.4 million in ARRA funds and required
deliver the senders’ freight, without disclosing that   that the contractor comply with the Buy America
she had arranged for the senders to remit payment       Act requirement that all steel and iron permanently
to her. The actual freight haulers were never paid.     incorporated into the project be manufactured in
This investigation was conducted jointly with the       the United States.
Decatur County Sheriff’s Office, Decatur, GA.           Our investigation determined that Hubtec and Kim
                                                        falsely represented that U.S.-made reinforcement
                                                        steel bars were used for the project, while Korean-
                                                        made reinforcement steel bars were actually
                                                        used. They also committed fraud through a billing




20  |  Audits and Investigations
Investigations

scheme, which falsely over-reported the costs of             January 10, 2014
materials. In May and June 2012, FHWA debarred
Kim and Hubtec for 3 years.                                  New Jersey Woman Sentenced
                                                             for Her Role in a DBE Scheme
This investigation was conducted jointly with the
FBI, with assistance from FHWA.                              Eva C. Glasgow, owner of the defunct Eva Glasgow
                                                             Contractors Inc. (EGC), was sentenced in U.S. District
                                                             Court, Camden, NJ, to 3 years probation, a $75,000
January 9, 2014
                                                             fine, and $4,316 in restitution. Glasgow previously
Michigan Firm Agrees To                                      pleaded guilty to making false statements on DBE
                                                             utilization reports associated with an FHWA-funded
Pay $3.825 Million to the
                                                             project and false statements relating to Federal
Government to Settle DBE                                     prevailing wage statutes.
Fr aud Claims
                                                             Our investigation revealed a DBE fraud scheme
Representatives for Oldcastle Materials Inc. entered         involving EGC that occurred on a $26-million FHWA-
into a $3,825,000 settlement agreement with the              funded road construction project in Collingswood,
Department of Justice (DOJ) and the U.S. Attorney’s          NJ. JPC Group Inc., the prime contractor, and
Office for the Eastern District of Michigan, to resolve      Beneficial Soil Solutions Inc. (BSS) a subcontractor,
its False Claims Act violation arising from a false          conspired with Glasgow to use EGC as a pass-
claim of DBE participation on a number of DOT-               through allowing JPC to claim credit for meeting
funded construction projects Michigan.                       DBE contract requirements. The conspiracy resulted
                                                             in JPC claiming $3,158,820 in fraudulent DBE
From January 2006 to December 2010, the                      work that was actually performed by a non-DBE.
defendants allegedly violated DBE requirements by            Additionally, EGC submitted false certified payroll
representing that liquid asphalt for various projects        records to New Jersey, claiming that EGC employees
was supplied by a company known as BN&M, a                   that did work at the construction site were paid the
listed DBE, when in fact, BN&M was acting as a pass-         prevailing rate and benefits when they were not.
through.
                                                             This case was worked jointly with the Department of
We conducted this investigation jointly with DOJ             Labor OIG and Internal Revenue Service (IRS) CID.
Civil Division, with assistance from FAA.




                                                          Semiannual Report to Congress  |  21
Investigations

January 13 and 15, 2014                                on Marikina letterhead and used a Marikina payroll
                                                       account to pay a CDS supervisor and work crew. SPI
Highway Construction                                   officials also paid Marikina a fixed fee for the use of
Officials Sentenced in                                 its name to obtain the DBE contracts.
Pennsylvania DBE Fr aud Case                           We investigated this case jointly with the FBI and
                                                       Department of Labor OIG, with assistance from
In U.S. District Court, Harrisburg, PA, Dennis F.
                                                       FHWA.
Campbell, Timothy Hubler, and Romeo Cruz were
sentenced in connection with their roles in the
largest reported DBE fraud in the Department           January 15, 2014
of Transportation’s (DOT) history. Campbell, the
former vice president of Schuylkill Products (SPI),    Texas Moving Company
was sentenced to 24 months in prison and 2 years       Owner Sentenced for
supervised release. Hubler, a former vice president
                                                       Household Good Moving
of CDS Engineers Inc. was sentenced to 33 months
in prison and 2 years supervised release and           Scheme
ordered to pay $82,370 in restitution to the IRS.
                                                       Anthony Fanelli was sentenced in Harris County,
Cruz, who operated Marikina Construction Corp,
                                                       TX, State Court to 20 years in prison and ordered
was sentenced to 33 months in prison and 2 years
                                                       to pay $200,000 in restitution in connection with a
of supervised release and ordered to pay $79,450
                                                       household goods moving scheme.
in restitution to the IRS. All three defendants were
ordered to pay $119 million in restitution, jointly    Between May 2009 and January 2012, Fanelli,
and severally, to FHWA.                                Andy Bueno, and Jovan Balknight lured customers
                                                       into doing business with their various moving
The investigation revealed that Campbell, Hubler,
                                                       companies by offering low moving estimates. Once
Cruz, and others defrauded DOT’s DBE program for
                                                       they took possession of customers’ household
more than 15 years over highway contracts valued
                                                       goods, they significantly increased the prices and
at more than $136 million. SPI and CDS, a subsidiary
                                                       withheld delivery until customers paid the inflated
of SPI, used Marikina as a shell DBE corporation
                                                       prices. If customers refused to pay the high prices,
to obtain DBE subcontracts for bridge beam
                                                       the three threatened to auction their household
installation projects with the intention of having
                                                       goods.
CDS and SPI employees perform, manage, control,
and supervise the beam installations. SPI and CDS
officials prepared fraudulent business documents




22  |  Audits and Investigations
Investigations

We conducted this investigation jointly with the              without authorization, he forged or affixed the
Houston and Austin, TX, Police Departments, with              seal and signature of unsuspecting professional
assistance from FMCSA.                                        engineers on bridge plans and transmitted these
                                                              documents to prime contractors on FHWA-funded
                                                              projects. The investigation revealed that Williams
January 24, 2014                                              submitted over 500 falsified documents on more
Former Pennsylvania Bridge                                    than 75 federally and State-funded highway projects
                                                              in 13 States. FHWA-funded contracts require
Contr actor Pleads Guilty to                                  approvals from professional engineers to ensure
Fr aud Charges                                                bridge design integrity and worker safety during
                                                              bridge construction. FHWA concluded that there
Matthew Williams, former owner of Clear Span                  were no safety concerns surrounding the metal
Construction Products LLC, pleaded guilty in U.S.             bridge deck form designs that bore Williams’ false
District Court, Pittsburgh, PA, to charges of falsifying      signatures.
engineering documents related to federally funded
highway construction projects between July 2008               On January 29, 2014, FHWA suspended and
and April 2012. Additionally, in August 2013, the             proposed the debarment of Matthew Williams and
U.S. Attorney’s Office entered into a civil agreement         Clear Span in response to charges filed against them
with Clear Span and its partners that resulted in a           for this fraud.
$50,000 civil settlement.
                                                              We are conducting this investigation jointly with the
Clear Span manufactured stay-in-place metal bridge            FBI, with assistance from FHWA.
deck forms that were placed between structural
steel or pre-stressed concrete bridge girders.
Williams admitted that, on multiple occasions and




                                                           Semiannual Report to Congress  |  23
Investigations

January 31, 2014                                       February 14, 2014

Georgia Man Convicted of                               Tennessee Contr actor
Conspir acy To Violate an                              Convicted of Theft of
FMCSA Imminent Hazard                                  Feder al Funds
Order
                                                       In U.S. District Court, Nashville, TN, Michael Young
Corey Daniels pleaded guilty in U.S. District Court,   pleaded guilty to theft of Federal funds. Young
Macon, GA, to conspiracy to violate an imminent        was contracted by the Tennessee Department
hazard out-of-service order issued by FMCSA.           of Transportation (TDOT) to manage federally
Daniels and others were indicted in conjunction        funded right-of-way acquisitions on TDOT’s behalf.
with this scheme on May 15, 2013.                      Young allegedly executed a scheme to obtain over
                                                       $900,000 from TDOT by falsely representing that
Daniels assisted Devasko Lewis in an attempt to        he would procure right-of-way properties with the
circumvent an October 2008 imminent hazard             proceeds. He used the money to manage personal
operations out-of-service order to cease all           properties and financial obligations.
operations at Lewis Trucking Company. The
company and Lewis were placed under the order          Young was also charged under forfeiture statutes
due to serious violations discovered during a FMCSA    regarding property valued at approximately
compliance review conducted after a fatal crash in     $900,000.
Alabama. Lewis formed Eagle Transport and Eagle
Trans using Daniels’ identity, failing to reveal to
FMCSA their involvement as owner-operators of the
companies.

We are conducting the investigation with assistance
from FMCSA and the Georgia Department of Public
Safety.




24  |  Audits and Investigations
Investigations

February 21, 2014                                       February 26, 2014

Connecticut Company’s                                   Household Goods Broker
Manager Sentenced for                                   Company Owner Sentenced
Falsification of Logbooks                               for Low Estimates Scam
Dariusz Szteborowski, manager of Wisla Express          Randy Goldberg, former owner and president of
LLC, in New Britain, CT, was sentenced in U.S.          National Moving Network (NMN), a household
District Court, Hartford, CT, to 14 months in prison    goods broker based in Miami, FL, was sentenced
and 3 years supervised release and ordered to           in U.S. District Court, San Jose, CA, to 18 months in
pay a $20,000 fine for his role in falsifying driver    prison and 1 year of supervised release. Additionally,
logbook entries submitted to FMCSA. Szteborowski        restitution of $829,000 is being sought for hundreds
was ordered to divest himself of all ownership          of victims in a forthcoming restitution hearing. In
interests in Wisla and not to reacquire ownership       August 2012, Goldberg pleaded guilty to failing to
interests for the duration of his supervised release.   give up possession of household goods belonging
Further, Szteborowski is not permitted to work for      to several victims.
Wisla or any other DOT-regulated entity during his
supervised release. On January 17, 2014, Wisla was      Our investigation determined that NMN quoted
sentenced to 5 years probation and a $75,000 fine in    customers low estimates to move their household
connection with its role in the scheme.                 goods; NMN then referred a majority of the moves
                                                        to AY Transport Inc., a household goods moving
The investigation disclosed that Szteborowski           company in San Jose, CA. After taking possession
created and maintained false driver time records to     of customers’ goods, AY Transport would quote
meet FMCSA reporting requirements. Szteborowski         customers rates greater than the original NMN
and others working for him and Wisla often assigned     estimate. Subsequently, AY Transport drivers would
drivers to trips knowing that they would exceed the     refuse to surrender customers’ household goods
regulated limits of on-duty driving time. To hide the   until they paid the increased fees. NMN received
violations from FMCSA inspectors, Szteborowski          money from AY Transport for referring business to
instructed drivers and other Wisla employees to         them, knowing that AY Transport was depriving
falsely record in logs that drivers were off duty       customers of their household goods.
during those times, then submitted the falsified logs
to FMCSA during inspections.                            We are investigating this case jointly with the FBI
                                                        and IRS, with assistance from FMCSA.
This investigation was conducted with assistance
from FMCSA.




                                                    Semiannual Report to Congress  |  25
Investigations

March 13, 2014                                          March 19, 2014

Owner of Bus Company                                    Toyota Motor Corpor ation
Pleads Guilty to Oper ating a                           Pays $1.2 Billion to U.S.
Commercial Motor Vehicle                                Government for Misleading
After an Unsatisfactory                                 NHTSA and U.S. Consumers
Safety Fitness Determination                            Regarding the Safety of Its
                                                        Vehicles
Angel De La Torre—former owner of Angel Tours, a
commercial motor carrier based in Houston, TX—          DOJ announced a criminal charge against Toyota
pleaded guilty to operating a commercial motor          Motor Corp., headquartered in Japan, in connection
vehicle after an unsatisfactory rating.                 with the automaker’s role in providing NHTSA
Our investigation revealed that De La Torre and         with misleading information on safety defects in
Angel Tours operated a commercial motor vehicle         Toyota and Lexus vehicles. In conjunction with
after being placed out of service following an          the criminal charge, DOJ announced a deferred
FMCSA inspection that uncovered numerous record-        prosecution agreement with Toyota, under which
keeping and safety violations. As a result of this      the company admits that it misled U.S. consumers
inspection, FMCSA ordered Angel Tours to cease all      by concealing and making deceptive statements
interstate transportation on June 23, 2008. However,    about two safety defects that caused unintended
in August 2008, an Angel Tours passenger bus was        acceleration. Under the agreement, Toyota forfeited
involved in a fatal crash near Sherman, TX.             $1.2 billion—the largest penalty of its kind imposed
                                                        on an automotive company. The agreement also
On May 30, 2013, Angel De La Torre, Carlos Ortuno,      requires independent monitoring of Toyota policies,
and Angel Tours were indicted in U.S. District          practices, and procedures related to its safety-
Court, Houston, TX, on charges of conspiracy, false     related public statements and reporting obligations.
statements, and operating a commercial motor
vehicle after being placed out of service.              The investigation disclosed that in fall 2009, Toyota
                                                        deceived consumers and NHTSA by claiming
This case was investigated jointly with the FBI, with   that its safety recall of eight models for “floor-
assistance from FMCSA.                                  mat entrapment”—an improperly secured or
                                                        incompatible floor mat trapping a depressed gas
                                                        pedal—addressed the cause of unintended




26  |  Audits and Investigations
Investigations

acceleration in its vehicles. However, at the time        March 26, 2014
the statements were made, Toyota had not recalled
some models that it knew were susceptible to              Massachusetts Businessman
floor-mat entrapment. In addition, Toyota had taken       Sentenced for Bribery
steps to hide from NHTSA that some of its vehicles
had “sticky pedal”—another type of unintended             Irfan Dushku was sentenced in U.S. District Court,
acceleration that causes the accelerator to stick at      Worcester, MA, to 1 year of probation and a $1,000
partially depressed levels.                               fine for bribery of a public official. Dushku paid
                                                          $1,000 to a FMCSA safety inspector to avoid
We conducted the investigation jointly with DOJ,          negative findings on a safety review of his motor
the Securities and Commodities Fraud Task Force,          carrier company, Korca Enterprises Inc.
and the FBI.
                                                          We conducted this investigation, with assistance
                                                          from FMCSA’s Massachusetts Division.




                                                       Semiannual Report to Congress  |  27
     rail, maritime, hazmat
         transport, and
       economic analysis
           OIG’s rail, maritime, hazmat transport, and economic analysis work
      emphasizes safety and economy through audits of rail, maritime, pipelines,
       and hazardous materials safety programs, as well as economic analysis and
         surface transportation financing, and through investigations of illegal
           packaging and transportation of hazmat and criminal violations of
                         pipeline safety laws and regulations.




28  |  Audits and Investigations
AUDITS AND INVESTIGATIONS
R A I L , M A R I T I M E , H A Z M AT T R A N S P O R T,
A N D E CO N O M I C A N A LYS I S
Audits

December 5, 2013                                      February 25, 2014

NEPA: FR A Coordinates as                             FR A Continues To Make
Required but Opportunities                            Progress Implementing
Exist To Modernize                                    PRIIA Responsibilities but
Procedures and Improve                                Faces Challenges With R ail
Project Delivery                                      Planning
Self-initiated                                        Required by the Passenger Rail Investment and
                                                      Improvement Act of 2008
As part of its $10.1-billion High Speed Intercity
Passenger Rail Program, the Federal Railroad          The Passenger Rail Investment and Improvement
Administration (FRA) collaborates with project        Act of 2008 (PRIIA) gives FRA important new
grantees, FHWA, and FTA on both construction and      responsibilities, including integrated rail planning
compliance with National Environmental Policy         for the entire country. PRIIA also requires OIG to
Act (NEPA) requirements. Federal agencies are         conduct two assessments of FRA’s progress in
required to follow regulations established by the     implementing the act’s provisions.
President’s Council on Environmental Quality (CEQ)
                                                      Since our first report, issued on March 6, 2012, FRA
and develop procedures as necessary to ensure
                                                      continued to make progress, but 12 of its 29 PRIIA
proper consideration of environmental concerns in
                                                      responsibilities remain incomplete. The Agency
agency decisionmaking. While FRA has complied
                                                      made progress on 10 of these 12, including ensuring
with NEPA in coordinating with FHWA and FTA,
                                                      that Amtrak’s stations comply with the Americans
and is working with OST to enhance coordination
                                                      with Disabilities Act, and initiating research studies
on the Department’s multimodal projects, the
                                                      on biofuels and the use of bio-based technology for
Agency has not updated most of its implementing
                                                      locomotives. However, FRA has not initiated work
procedures since 1999. As a result, the Agency has
                                                      on two responsibilities—conducting high-speed
not added requirements from subsequent statutes
                                                      rail corridor studies for Congress, and establishing a
and recommended CEQ guidance to the procedures.
                                                      process for the designation and extension of high-
In addition, FRA has not developed standard
                                                      speed rail corridors.
operating procedures for its staff to use in NEPA
process administration and to help ensure grantees’   FRA has faced challenges in its development of
environmental documentation is complete. FRA          a national rail plan, as required by PRIIA. While it
concurred with our two recommendations to             undertook several rail planning activities, FRA did
improve its compliance with the NEPA process.         not articulate how its approach will fully address




                                                  Semiannual Report to Congress  |  29
Audits                                                     Investigations

PRIIA. Rather than creating a single, national rail        October 9, 2013
plan as PRIIA calls for, FRA chose a decentralized
strategy that focuses on State and regional                Pipeline R adiogr aph
planning. FRA’s efforts to date have focused on            Technician Charged With
plans for the Northeast Corridor and three States          Violating Pipeline Safety
in the southwest—California, Nevada, and Arizona.
The Agency has not yet established plans and
                                                           Laws and Making False
milestones for other regions, or determined how            Statements
it will link regional plans into a unified national rail
plan. FRA concurred with our recommendation                Edna S. Stoner, a radiograph technician, was
to update its PRIIA Action Plan and include an             charged in U.S. District Court, Urbana, IL, with
explanation of how its strategy will fulfill PRIIA’s       violating pipeline safety laws and making false
requirement for a national rail plan.                      statements.

                                                           The Pipeline and Hazardous Material Safety
                                                           Administration (PHMSA) has jurisdiction over
                                                           interstate natural and hazardous liquid gas
                                                           pipelines. The Federal pipeline safety standards
                                                           and regulations include requirements for pipeline
                                                           materials, design, construction, testing, operation,
                                                           and maintenance. Nondestructive testing to confirm
                                                           the integrity of the welding process is required on
                                                           pipes over 6 inches in diameter.

                                                           From about June 2008 to February 2009, Stoner
                                                           falsified that welds at the Blue Mound, IL, Rockies
                                                           Express Pipeline compressor station had been
                                                           radiographed and had passed when not all the
                                                           welds had been tested.

                                                           We conducted this investigation jointly with the U.S.
                                                           Attorney’s Office, Environmental Crimes Section,
                                                           Washington, DC, with assistance from PHMSA.




30  |  Audits and Investigations
Investigations

Note: Indictments, informations, and criminal              We conducted this investigation jointly with DOJ
complaints are only accusations by the Government.         Environmental Crimes Section, with assistance from
All defendants are presumed innocent unless and until      PHMSA.
proven guilty.

                                                           January 27, 2014
October 23, 2013
                                                           Shipping Company Sentenced
Former R adiogr aph                                        for its Role in the Illegal
Technician Sentenced for                                   Tr ansport of Explosives
False Statements on Rockies
                                                           In U.S. District Court, West Palm Beach, FL, Coastal
Express Pipeline
                                                           Shipping Holding Inc., previously known as G&G
Eric Barnes, a former Acuren Inspection Inc.               Marine Inc., was sentenced to 24 months probation
radiograph technician, was sentenced in U.S. District      and a fine of $750,000 for its role in illegally
Court, Indianapolis, IN, to 24 months probation            transporting hazardous materials, failure of a
and ordered to pay a $500 special assessment for           hazardous material employer to train its employees,
submitting false statements.                               and recklessly loading and stowing explosives on a
                                                           vessel.
Barnes was responsible for conducting non-
destructive testing of pipeline welds on a portion         The investigation revealed that Coastal Shipping
of the Rockies Express Pipeline, and for interpreting      received and accepted a shipment of explosives that
and reporting test results. Test results and               were supposed to be shipped from Port Everglades,
information are recorded on reader sheets that             Fort Lauderdale, FL, to Nassau, Bahamas. Coastal
pipeline owners maintain as proof of nondestructive        employees illegally transported the explosives in
testing, as PHMSA regulations require.                     a commercial truck from the company warehouse
                                                           staging area to the dockside facility and onto an
Barnes made false statements on reader sheets              ocean-going commercial vessel, placing them
by confirming that welds of the pipeline at the            alongside other hazardous materials.
compressor station in Bainbridge, IN, had been
radiographed. However, Barnes loaded multiple
pieces of film into one radiograph cassette,
radiographed one weld, intentionally mislabeled the
film with different welds’ identifying numbers, and
reported that multiple welds were radiographed.




                                                        Semiannual Report to Congress  |  31
Investigations

February 10, 2014                                          Our investigation was initiated after incompatible
                                                           hazardous waste materials exploded at a Home
Owner of Hazardous Waste                                   Depot store. The investigation determined that
Tr ansport Company Pleads                                  under SIS’s direction, the commercial motor
Guilty                                                     carrier consolidated various waste streams into
                                                           a single drum and loaded the drum into a truck
In U.S. District Court, Los Angeles, CA, Barry Bancroft,   for transportation. The commercial carrier was
owner of Slate Industrial Services (SIS), pleaded          undertrained to carry hazardous materials.
guilty to failure to maintain commercial motor
                                                           This investigation was conducted jointly with the
vehicle driver training records. On the same date,
                                                           FBI, California Department of Toxic Substance
SIS pleaded guilty to transporting hazardous waste
                                                           Control, Los Angeles County Fire Department-Health
without a manifest.
                                                           Hazmat, and the Environmental Protection Agency.




32  |  Audits and Investigations
             financial and
              information
              technology
    OIG’s financial and information technology work emphasizes economy
and efficiency through audits of financial statements, IT security, and oversight
        of single audits of non-Federal grantees expending DOT funds.




                                       Semiannual Report to Congress  |  33
AUDITS AND INVESTIGATIONS
F I N A N C I A L A N D I N F O R M AT I O N
T E C H N O LO G Y
Audits
October 24, 2013                                       November 7, 2013

Quality Control Review                                 Quality Control Review of
on the Single Audit of the                             the Saint Lawrence Seaway
Tr ansbay Joint Powers                                 Development Corpor ation’s
Authority                                              Audited Financial Statements
Single Audit Act and Office of Management and Budget
                                                       for Fiscal Years 2013 and 2012
Circular A-133
                                                       Required by the Government Corporation Control Act

We conducted a quality control review of a single
                                                       We conducted a quality control review of the Saint
audit performed by Vavrinek, Trine, Day & Co. LLP
                                                       Lawrence Seaway Development Corporation’s
(VTD) on the Transbay Joint Powers Authority’s
                                                       (SLSDC) audited financial statements for fiscal years
use of DOT grants for the fiscal year ended June
                                                       2013 and 2012. Chiampou Travis Besaw & Kershner
30, 2012. During this period, the Authority, located
                                                       LLP, under contract to SLSDC, issued a clean
in San Francisco, CA, expended approximately
                                                       (unqualified) audit opinion on SLSDC’s financial
$123 million from DOT grant programs. VTD
                                                       statements. Chiampou Travis Besaw & Kershner’s
determined that DOT’s major programs were the
                                                       report did not include any reportable deficiencies
High Speed and Intercity Passenger Rail (HSIPR)
                                                       in internal control over financial reporting or any
Program and the Federal Highway Planning and
                                                       instances of reportable noncompliance with laws
Construction Program. Our review—limited to
                                                       and regulations tested. Our quality control review
the HSIPR Program because its expenditures
                                                       disclosed no instances in which Chiampou Travis
were approximately 94 percent of the total DOT
                                                       Besaw & Kershner did not comply, in all material
expenditures—determined that VTD’s audit
                                                       respects, with auditing standards.
work was acceptable and, therefore, met the
requirements of the Single Audit Act; Office of
Management and Budget’s (OMB) Circular A-133,          November 22, 2013
Audits of States, Local Governments, and Non-Profit
Organizations; and HSIPR. We found nothing to          FISMA 2013: DOT Has Made
indicate VTD’s opinion on HSIPR was inappropriate      Progress, but Its Systems
or unreliable.                                         Remain Vulner able to
                                                       Significant Security Threats
                                                       Required by the Federal Information Security
                                                       Management Act of 2002

                                                       Consistent with requirements of the Federal
                                                       Information Security Management Act of 2002



34  |  Audits and Investigations
Audits

(FISMA) and OMB, our audit objective was to               ledger. FAA agreed with the significant deficiency
determine the effectiveness of DOT’s information          and committed to strengthening its review and
security program and practices. DOT has made              posting processes. KPMG’s report did not include
some progress in its information security program,        any instances of reportable noncompliance with
but its systems remain vulnerable to significant          laws and regulations tested. Our quality control
security threats due to deficiencies in policies          review disclosed no instances in which KPMG did
and procedures, enterprise-level controls, system         not comply, in all material respects, with auditing
controls, and management of known security                standards.
weaknesses. To help the Department address the
challenges in developing a mature and effective
information security program, we recommended              December 16, 2013
that the chief information officer take 8 actions         Quality Control Review
in addition to 15 recommendations that are still
open from our prior FISMA reports. The Office of          of DOT’s Audited Financial
the Chief Information Officer generally concurred         Statements for Fiscal Years
with our recommendations. As required by OMB,             2013 and 2012
we provided the results of our review to OMB via its
Web site.                                                 Required by the Chief Financial Officers Act

                                                          We conducted a quality control review of DOT’s
December 13, 2013                                         audited consolidated financial statements for fiscal
                                                          years 2013 and 2012. KPMG, under contract to
Quality Control Review                                    OIG, issued a clean (unmodified) audit opinion on
of FAA’s Audited Financial                                DOT’s consolidated financial statements. KPMG’s
Statements for Fiscal Years                               report included three significant deficiencies in
                                                          internal control over financial reporting related to
2013 and 2012
                                                          the sufficiency of controls over undelivered orders,
Required by the Chief Financial Officers Act              the sufficiency of controls over unfilled customer
                                                          orders without advances, and the reliability of audit
We conducted a quality control review of FAA’s            evidence. KPMG’s report also included instances of
audited financial statements for fiscal years 2013        reportable noncompliance with the Anti-Deficiency
and 2012. KPMG LLP, under contract to OIG,                Act. DOT agreed with the significant deficiencies
issued a clean (unmodified) audit opinion on              and the instances of noncompliance and committed
FAA’s financial statements. KPMG’s report included        to corrective actions. Our review disclosed no
one significant deficiency in internal control over       instances in which KPMG did not comply, in all
financial reporting related to the review and             material respects, with auditing standards.
posting of certain transactions to the general



                                                       Semiannual Report to Congress  |  35
Audits

January 15, 2014                                       This report was For Official Use Only to protect
                                                       sensitive information exempt from public disclosure
Quality Control Review                                 under the Freedom of Information Act.
of Controls Over DOT’s
Enterprise Services Center                             January 31, 2014
Required by OMB Memorandum M-08-24, Technical          Management Advisory on
Amendments to OMB Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements          Registr ation of Aircr aft
                                                       to U.S. Citizen Trustees in
We conducted a quality control review of an
attestation engagement performed by KPMG on            Situations Involving Non-
the Enterprise Services Center’s (ESC) description     U.S. Citizen Trustors and
of its system and the suitability of the controls’     Beneficiaries
design and operating effectiveness. KPMG found
that (1) throughout the period (October 1, 2012,       Self-initiated
to June 30, 2013), ESC’s description of its controls
fairly presented, in all material respects, ESC’s      We issued this advisory to inform FAA of concerns
implemented system; (2) the controls were suitably     we identified regarding the registration of aircraft
designed to provide reasonable assurance that          owned under trusts for non-U.S. citizens. In June
the controls’ objectives would be achieved if the      2013, we reported that FAA could not identify key
controls operated effectively throughout the period;   information—such as the identity of trustors and
(3) user entities applied throughout the period        beneficiaries—for many of the aircraft registered
the complementary user controls contemplated in        under these trusts. Subsequently, we determined
the controls’ design; and (4) the controls tested—     that in some cases the information is not available
together with the complementary user entities’         from the trustees. Furthermore, FAA does not always
controls, if operating effectively—were those          comply with its requirements when registering
necessary to provide reasonable assurance that the     these aircraft. The lack of complete and accurate
controls’ objectives were achieved and operated        data on aircraft registered on behalf of non-U.S.
effectively throughout the period.                     citizens makes it difficult for FAA to ensure aviation
                                                       safety.
Our quality control review disclosed no instances in
which KPMG did not comply, in all material respects,
with auditing standards.




36  |  Audits and Investigations
Audits

January 31, 2014                                            January 31, 2014

Inspector Gener al Review                                   Inspector Gener al Review
of NHTSA’s Fiscal Year 2013                                 of FAA’s Fiscal Year 2013
Drug Control Funds and                                      Drug Control Funds and
Performance Summary                                         Performance Summary
Reporting                                                   Reporting
Required by the Office of National Drug Control Policy      Required by ONDCP Circular, Accounting of Drug Control
Circular, Accounting of Drug Control Funding and            Funding and Performance Summary
Performance Summary
                                                            During our review of FAA’s fiscal year 2013 Drug
During our review of NHTSA’s fiscal year 2013 Drug          Control Obligation Summary and Performance
Control Obligation Summary and Performance                  Summary reports, no information came to our
Summary reports, no information came to our                 attention that would reverse management’s
attention that would reverse management’s                   assertions that the reports complied, in all material
assertions that the reports complied, in all                respects, with the requirements of the ONDCP
material respects, with the requirements of the             Circular, Accounting of Drug Control Funding and
Office of National Drug Control Policy Circular             Performance Summary, dated January 18, 2013.
(ONDCP), Accounting of Drug Control Funding and
Performance Summary, dated January 18, 2013.




                                                         Semiannual Report to Congress  |  37
 IN F O CUS
 The Vir tual World of the Computer
 Crimes Unit

 I   n an era when businesses and
     individuals rely heavily on computers,
 cell phones, and other digital devices to
                                                 directives, and only OIG employees with
                                                 valid credentials can log on to the system.

 conduct daily business, OIG investigators       OIG’s MDE and VFSE capabilities have
 must often sift through massive volumes         enhanced collaboration between case
 of electronic forensic evidence to support      agents and forensic examiners, who can
 allegations of fraud, waste, and abuse.         better target digital evidence that supports
 In 2013 alone, OIG’s Computer Crimes            OIG’s investigative work. Moreover, by
 Unit (CCU) seized over 500 digital devices      streamlining the search process and
 containing 105 terabytes of electronic          leveraging existing software licensing and
 data—roughly 43 billion single-spaced           open source technologies, VFSE allows CCU
 typewritten pages. To help case agents          to provide timely and effective support to
 quickly acquire, extract, and analyze           case investigators nationwide, and creates
 electronic evidence—CCU’s primary               significant cost savings to OIG.
 mission—CCU created the revolutionary           Most importantly, the capabilities enable
 Virtual Forensic Server Environment (VFSE)      OIG agents to quickly stop criminals from
 and an automated media data extraction          stealing Government funds and from
 (MDE) process.                                  putting the safety and lives of citizens
 Through the MDE process, CCU can recover        at risk. In one case, agents investigated
 files of potential investigative interest,      allegations of a 20-year scheme to defraud
 typically within 2 weeks, and provide the       DOT’s DBE program—a scheme involving
 files to case agents on VFSE, along with the    more than $24 million in DBE subcontracts
 tools necessary to view them. Ultimately,       on over 290 federally funded highway
 case agents can quickly search large            construction projects. This type of criminal
 volumes of seized documents, emails,            activity not only represents blatant misuse
 financial records, and databases stored on      of Federal funds but diverts millions of
 VFSE and identify important investigative       dollars from legitimate DBEs and increases
 information, while maintaining the forensic     the risk of substandard and faulty road,
 integrity of the evidence. Navigating VFSE’s    tunnel, and bridge construction. The case
 virtual desktop environment, which CCU          agent on this investigation noted that a
 pre-configured, is easy because it is similar   VFSE search “quickly provided key evidence
 to case agents’ daily desktop environment.      that corroborated specific allegations and
 From a security perspective, VFSE complies      directly led to a defendant’s cooperation,
 with applicable Federal regulations and         which in turn led to five plea agreements.”




38 | In Foc us
Over the past year, CCU presented OIG’s       considering adopting MDE to strengthen
MDE process at several digital forensics      their computer analysis services. Recently,
conferences. Participants included            a representative from the National Insider
representatives from Federal, State, and      Threat Task Force noted that MDE is “perfect
local governments; the private sector;        for monitoring classified networks” and that
and international law enforcement             MDE’s automation is an invaluable addition
agencies, including the Israeli Police and    to the task force’s Malicious Insider Iterative
the Hellenic Police. As a result of these     Risk Analysis process.
and other outreach efforts, CCU’s MDE
process is being recognized by other U.S.
and international investigative and law
enforcement agencies, and some are




                                         Semiannual Report to Congress  |  39
               acquisition and
                procurement
      OIG’s acquisition and procurement work emphasizes economy and efficiency
        through audits of the Department’s acquisitions, contracts, and financial
       assistance agreements, and through investigations of false statements and
                        claims, bribery, and conflicts of interest.




40  |  Audits and Investigations
AUDITS AND INVESTIGATIONS
ACQ U I S I T I O N A N D P R O C U R E M E N T
Audits

In addition to directing its own audits, OIG’s Office of Acquisition and Procurement partners with
other OIG offices to provide acquisition expertise and audit work on a broad and cross-cutting range
of reports related to our aviation; highway and transit; rail, maritime, and hazmat transport; and
information technology work. Leveraging OIG’s acquisition expertise across all audit groups ensures
consistent and thorough reviews of acquisition matters throughout the Department and with its
grantees.


December 18, 2013                                          FAA’s progress in addressing our prior findings and
                                                           recommendations, as well as to determine whether
FAA Needs To Improve ATCOTS                                FAA can achieve ATCOTS training goals under
Contr act Management                                       the current contract. While FAA addressed eight
To Achieve Its Air Tr affic                                of nine recommendations from our 2010 report,
                                                           weaknesses in contract and program oversight
Controller Tr aining Goals                                 remain. Due to lack of clearly defined requirements,
Requested by the Chairman of the Senate Homeland           the ATCOTS program experienced 4 consecutive
Security and Governmental Affairs Subcommittee on          years of cost overruns, totaling about $89 million.
Financial and Contracting Oversight                        FAA has also not been able to achieve goals to
                                                           reduce training time and provide innovative training
FAA plans to hire over 11,700 air traffic controllers      and has not measured its progress toward its goal
through fiscal year 2021. To help develop the              to reduce training costs. In addition, FAA’s cost
new cadre of professional air traffic controllers          incentives were ineffective for controlling costs;
FAA awarded the $859-million Air Traffic Control           and the performance measures the Agency used
Optimum Training Solution (ATCOTS) contract—               for award fees were not tied to enhancing contract
intended to provide up to 10 years of controller           goals. FAA concurred with 9 of 10 recommendations
training support. In September 2010, we reported           we made and partially concurred with one.
on FAA’s weak acquisition practices and lack of
effective contract oversight for the ATCOTS contract.
We conducted this follow-up review to determine




                                                        Semiannual Report to Congress  |  41
Audits

January 14, 2014                                             January 15, 2014

The Success of FAA’s Air                                     DOT’s Efforts to Reduce
Tr affic Controller Optimum                                  Spending on Management
Tr aining Solution Relies                                    Support Services Contr acts
on Sound Contr acting                                        Have Been Delayed
and Progr am Management                                      Self-initiated
Pr actices
                                                             As part of its “Campaign to Cut Waste,” OMB
Testimony Before the Senate Homeland Security and            set a goal for agencies to reduce spending on
Governmental Affairs Subcommittee on Financial and
                                                             management support services contracts by 15
Contracting Oversight
                                                             percent—from fiscal year 2010 spending levels—by
The Assistant Inspector General for Acquisition              the end of fiscal year 2012. OMB also called for the
and Procurement Audits testified before the                  chief financial officer and chief acquisition officer of
Senate Committee on Homeland Security and                    each agency to institute controls to monitor fiscal
Governmental Affairs, Subcommittee on Financial              year 2012 obligations for management support
and Contracting Oversight, on FAA’s ATCOTS                   services under new contracts.
contract. The Assistant Inspector General focused            DOT’s spending on management support services
on four primary weaknesses that we identified in             contracts—totaling over $1 billion annually—
our reviews. Specifically, she discussed how a lack          increased from fiscal years 2010 through 2012,
of training requirements, training innovations, and          and over half of these obligations involve high-risk
effective contract oversight, and poor use of award          contract types, such as time-and-materials and
and incentive fees have undermined FAA’s efforts to          cost-reimbursement contracts. Despite this increase,
achieve its ATCOTS training goals and to maintain a          the Department reported that it achieved contract
sufficient cadre of fully trained air traffic controllers.   cost savings through an ongoing strategic sourcing
                                                             initiative. However, DOT delayed implementing
                                                             the initiative’s phases that focus on management
                                                             support services spending, and the Department
                                                             lacked comprehensive plans and policies for
                                                             implementing these initiatives. DOT recently
                                                             initiated actions that could provide a foundation
                                                             for improving its use of management support




42  |  Audits and Investigations
Audits

services contracts, such as revising its “Acquisition     FTA awarded MWAA the last in a series of grants for
Oversight and Risk Management Policy,” but it has         Phase 1, providing $975 million in Federal funds
not implemented OMB’s suggested internal controls         including $77 million in ARRA funds.
for managing and monitoring obligations for
management support services contracts. Deferring          Despite significant Federal investment, MWAA lacks
these efforts to focus on management support              adequate controls to ensure that expenses claimed
services contracts has delayed opportunities to           for funding on FTA’s grant for Phase 1 are eligible
reduce spending and better manage these contracts.        for reimbursement. Our review of 282 Dulles rail
                                                          project transactions determined that MWAA claimed
DOT concurred with our two recommendations to             $36 million in unsupported costs and $119,000 in
help the Department control spending and improve          costs unallowable for Federal reimbursement. Given
management of its management support services             that $289 million in Federal grant funds remain
contracts.                                                available for disbursement, improvements to MWAA’s
                                                          financial management controls are critical for
                                                          effective management of this Federal investment.
January 16, 2014
                                                          FTA concurred with the seven recommendations we
MWAA’s Financial Management                               made to increase FTA’s oversight of MWAA’s controls
Controls Are Not Sufficient                               for ensuring that claimed Dulles rail project expenses
To Ensure Eligibility of                                  are eligible for reimbursement.

Expenses on FTA’s Dulles R ail
Project Gr ant
Requested by Congressmen Frank R. Wolf and Tom Latham

The Metropolitan Washington Airports Authority
(MWAA) is an independent public body responsible
for the design and construction of Phases 1 and 2 of
the Dulles Corridor Metrorail Project. In March 2009,




                                                        Semiannual Report to Congress  |  43
Investigations

January 3, 2014                                       OIG began investigating Bolden after receiving
                                                      information from FHWA’s Western Federal Lands
California Man Pleads                                 Highway Division (WFLHD) office in Vancouver,
Guilty in Fr aud Scheme To                            WA. In March 2011, WFLHD posted a pallet of
Steal Computer Equipment                              15 computers, which cost the Government
                                                      $13,950, on the CFL website. Bolden requested the
Intended for Nonprofit                                computers on behalf of the Los Angeles Academy
Schools                                               of Educational Development (LAAED). In April
                                                      2011, the computers were shipped from WFLHD to
Steven A. Bolden pleaded guilty in U.S. District      LAAED. WFLHD became suspicious when it received
Court, Tacoma, WA, to charges relating to his         a United Parcel Service (UPS) bill in September
role in a scheme to transfer to himself computer      2011 for the shipments. LAAED was supposed
equipment originally purchased by the Federal         to pay shipping costs, but UPS was unable to
Government for more than $25 million. He              contact LAAED or Bolden to collect payment. Our
presented himself as a representative of nonprofit    investigation determined that LAAED was not a
schools eligible to receive excess computers          legitimate nonprofit school.
through the General Services Administration’s (GSA)
Computers for Learning (CFL) program, which allows    We are investigating this case jointly with Army CID;
the transfer of surplus computers and technology      DHS OIG; Department of Energy OIG; DOJ OIG; FBI;
equipment to schools and nonprofit educational        GSA OIG; IRS CID; Social Security Administration OIG;
groups.                                               and Veterans Administration OIG.




44  |  Audits and Investigations
Investigations

February 27, 2014                                        ordered Martin to forfeit $3 million in proceeds she
                                                         received from her fraudulent activity.
Idaho Contr actor Sentenced
to 7 Years in Prison for DOT                             Our investigation determined that Martin submitted
                                                         fraudulent applications to have her construction
DBE and SBA 8(a) Progr ams                               company, MarCon, admitted and/or remain in the U.S.
Fr aud Scheme                                            Small Business Administration (SBA) 8(a) program and
                                                         DOT’s DBE program. Martin took steps to artificially
Elaine Martin, former president and majority             lower her personal net worth—such as acquiring,
stockholder of MarCon Inc., was sentenced in             holding, and transferring assets into the names of
U.S. District Court, Boise, ID, to 84 months in          nominees—in order to appear to be economically
prison followed by 3 years of supervised release         disadvantaged. As a result of this manipulation,
for conspiracy, wire fraud, and mail fraud. Martin       MarCon appeared to qualify for the DBE and SBA
also received a concurrent sentence to 24 months         8(a) programs, and received more than $17.5 million
in prison for tax fraud and obstruction of justice       in Government contracts based on the company’s
followed by 3 years of supervised release. The Court     fraudulently obtained SBA 8(a) status.
ordered Martin to pay restitution of $98,825.20 to the
IRS and $32,575.28 to the Idaho DBE Program, and         This investigation is being conducted jointly with SBA
prosecution costs of $22,859.60. The Court also          OIG, IRS CID, and the FBI.




                                                    Semiannual Report to Congress  |  45
  IN F O CUS
  Strengthening O versight of DOT ’s
  D isadvantaged Business Enterprise
  Pro gram

  I   n fiscal years 2011 and 2012, DOT
      distributed around $4.4 billion annually
  to support small businesses through its
                                                   to participate and that DBEs actually
                                                   perform the work according to the contract
                                                   terms. DOT’s DBE regulations place these
  DBE program—a program created in the             responsibilities primarily on recipients.
  1980s to help socially and economically          However, the program also requires
  disadvantaged individuals who own                the Department to provide leadership,
  and control small businesses participate         guidance, and oversight.
  in DOT contracting opportunities. As a
  high-dollar program implemented by               Despite this requirement, DOT had not
  numerous recipients across the Nation, the       issued comprehensive and standardized
  DBE program carries a high risk of fraud,        DBE guidance; provided sufficient
  waste, and abuse. The number of DBE fraud        training to the recipients responsible
  cases has increased significantly in recent      for implementing the program; or
  years. In fiscal year 2012, our DBE fraud        established a single line of accountability
  cases resulted in four indictments, seven        for the program. In addition, Operating
  convictions, and almost $10 million in           Administrations and recipients did not
  financial recoveries. As of October 31, 2013,    adequately oversee or implement the
  DBE fraud cases represented about                DBE program. We identified weak DBE
  40 percent of our active grant fraud             certification and contract oversight
  investigative work and 17 percent of all our     practices in several States that increase the
  active investigations. In fiscal year 2013,      risk that ineligible firms will be certified as
  our investigators reported 16 indictments        DBEs. These weaknesses are also evident
  and 20 convictions for DBE fraud with $10.3      in our increasing DBE fraud investigations.
  million in financial recoveries.                 Finally, the Department has had limited
                                                   success in achieving its regulatory program
  The DBE program is unique to the                 objective to help DBE firms succeed in the
  transportation sector and covers contracts       marketplace, as we found that less than 20
  awarded by grant recipients, including           percent of certified DBEs in our six sample
  State highway agencies, airport and              States received work on Federal projects.
  transit authorities, and other State and
  local jurisdictions that receive DOT funds.      As a result of these findings, which we
  As required by law, each recipient must          reported in April 2013, we made eight
  implement a DBE program and establish            recommendations to enhance DOT’s DBE
  an annual DBE participation goal. The            program management and oversight. In
  integrity of the DBE program depends in          addition, in September 2013, we issued a
  large part on grant recipients’ procedures       management advisory highlighting errors
  for ensuring only eligible firms are certified   in some State DBE directories. Specifically,


46 | In Foc us
the directories identified suspended or         our recommendations so that the DBE
debarred firms as eligible to participate       program fairly and effectively expands
in the DBE program, creating the risk that      opportunities for DBEs. In addition, the
ineligible firms could receive Federal DBE      FAA Modernization and Reform Act of
funds. The advisory emphasized the need         2012 required OIG to identify possible
for DOT to implement program guidance           impediments to obtaining DBE awards
and safeguards to prevent DBE contract          and best practices among the Nation’s 64
awards from going to suspended or               largest airports with the greatest numbers
debarred firms, and to ensure that ineligible   of new DBE entrants. We expect to report
firms do not receive federally funded           our findings later this year.
projects.
                                                DOT has since consolidated the leadership
Within 1 month of the issuance of our           of the DBE program under the Office of
April 2013 report, the Congressional            Civil Rights and has specified the roles,
Black Caucus asked the Department to            relationships, and functions of DOT offices
provide a detailed plan that addresses          responsible for leading the program.
each of our recommendations—including           Successful implementation of our
implementation dates and criteria for           recommendations will better position the
assessing management improvements—              Department to meet the intent of the DBE
and requested a briefing with the               program and prevent future fraud, waste,
Inspector General on the Department’s           and abuse.
progress. Other congressional members
have asked DOT to fully implement




                                         Semiannual Report to Congress  |  47
              departmentwide
                   issues
          OIG general conducts audits and investigations of departmentwide
          issues that are either self-initiated or in response to requests from
                            Congress and the Department.




48  |  Audits and Investigations
AUDITS AND INVESTIGATIONS
D E PA R T M E N T W I D E I S S U E S


December 16, 2013                                      •	   Continuing actions to strengthen highway,
                                                            transit, and pipeline safety;
Top Management Challenges
for Fiscal Year 2014                                   •	   Improving oversight of surface infrastructure
                                                            investments and implementing statutory
Required by the Reports Consolidation Act of 2000           requirements;
and OMB Circular A-136
                                                       •	   Implementing requirements to address FRA’s
Our report on the top management challenges                 expanded and traditional responsibilities;
facing the Department in fiscal year 2014
                                                       •	   Managing acquisitions and contracts to achieve
highlighted seven areas:
                                                            results and save taxpayer dollars; and
•	   Improving FAA’s oversight of the aviation
                                                       •	   Building a secure and modern IT infrastructure.
     industry and the operations of the National
     Airspace System;                                  This report was included in the Department’s
                                                       Annual Financial Report, as required by law.
•	   Identifying and addressing root causes of
     NextGen problems and setting investment
     priorities;




                                                    Semiannual Report to Congress  |  49
            OTHER
        ACCOMPLISHMENTS
              OIG’s other accomplishments and contributions are those
             that extend beyond the legal reporting requirements of the
                               Inspector General Act.




50  |  Mission and Organiz ation
OTHER ACCOMPLISHMENTS




November 25, 2013                                      February 10, 2014

Presentation on the Effects                            Fr aud Awareness Briefing
of Limited Competition on                              on Billion-Dollar Bridge
Airline Cancellations and                              Project
Delays
                                                       A Special Agent-in-Charge from OIG’s Office of
An economist from OIG’s Office of Rail, Maritime,      Investigations, New York Regional Office, provided
and Hazmat Transport Audits, and Economic              a fraud awareness briefing related to the Tappan
Analysis participated on a panel on competition        Zee Bridge replacement project in Westchester, NY.
and quality at the Southern Economics Association      FHWA approved a Transportation Infrastructure
annual meeting in Tampa, FL. The economist             Finance and Innovation Act (TIFIA) loan of up to
presented OIG’s methodology for determining            $1.6 billion for the project. The loan represents
the effects of limited competition on airline          the largest award in the TIFIA program’s history.
cancellations and delays. Participants included        Briefing participants included various construction
economists, most in academia, from around the          contractors in Tarrytown, NY.
world.
                                                       February 24, 2014
December 5, 2013
                                                       Presentation on UAS
Presentation on OIG’s                                  Integr ation Into the
Oversight of Hurricane                                 National Airspace System
Sandy Relief Funds
                                                       The Deputy Assistant Inspector General for
The Deputy Assistant Inspector General for             Aviation spoke at the Air Traffic Control Association
OIG’s Office of Highway and Transit Audits             conference on FAA’s progress in meeting
spoke at the New York/New Jersey/Mid-Atlantic          requirements in the FAA Modernization and Reform
Intergovernmental Audit Forum on OIG’s work            Act of 2012 to integrate UAS into the National
on oversight of Hurricane Sandy relief funds. The      Airspace System. He discussed a number of
meeting was attended by Federal, State, and local      technical and operational challenges that FAA and
auditors and investigators in the region.              the aviation industry face in integrating UAS into
                                                       domestic airspace. A key theme of his message was
                                                       the need to develop realistic budgets for advancing




                                                    Semiannual Report to Congress  |  51
UAS technology that include both development and
implementation. The conference was attended by
leaders of U.S. and foreign aerospace firms as well as
various Government agencies, including DOD.


February 27, 2014

NextGen Roundtable
The Deputy Assistant Inspector General for Aviation
participated in a roundtable convened by the
Chairman and Ranking Member of the House
Transportation and Infrastructure Subcommittee on
Aviation to discuss FAA’s progress in implementing
NextGen. The session focused on FAA’s response
to recent Government-industry task force
recommendations on NextGen’s investment
priorities. The Deputy provided observations on the
priorities and highlighted the need for FAA to follow
through on plans to establish firm commitment
dates for introducing new capabilities at specific
locations.




52 | Other Accomplishments
WORK PLANNED AND
  IN PROGRESS
   This section describes OIG’s work planned or in progress for April 1, 2014
 through September 30, 2014. The work focuses on the Department’s Strategic
Plan and responds to requests by Congress and Administration officials. We take
     into account the need to support DOT’s most critical programs and to
          ensure that the Department’s resources are protected from
                           fraud, waste, and abuse.




                                       Semiannual Report to Congress  |  53
WORK PL ANNED AND IN PR O GRESS

AV I AT I O N
In Progress

Air Tr affic Control Tower                                  cancellations. These models will allow us to separate
                                                            the effects of changes or limits in competition on
Productivity Assessment
                                                            cancellations and delays from the effects of other
In response to a request from the Chairmen of               factors, such as weather and congestion.
the House Transportation and Infrastructure
Subcommittee on Aviation, we are conducting an              Challenges and Risks With
audit of FAA air traffic control tower productivity.        the Implementation of
Specifically, we are assessing the relative efficiency      FAA’s Automatic Dependent
of FAA air traffic control towers and identifying
                                                            Surveillance-Broadcast
factors that affect air traffic control tower
productivity.                                               At the request of the Chairman and Ranking
                                                            Minority Member of the House Appropriations
Effects of Limited                                          Subcommittee on Transportation, Housing and
Competition on Airline                                      Urban Development, and Related Agencies and as
Flight Delays and                                           required by the FAA Modernization and Reform Act
                                                            of 2012, we are conducting a review of ADS-B—an
Cancellations
                                                            important NextGen component that is expected
The FAA Modernization and Reform Act of 2012                to leverage satellite-based technology, aircraft
directs OIG to assess the effect that limited air carrier   avionics, and ground-based systems to provide
service options on routes have on the frequency of          information to pilots and air traffic controllers
delays and cancellations on such routes. To meet            on the position of aircraft in all phases of flight.
this requirement, we are analyzing the relationship         Our audit objectives are to assess FAA’s progress
between the presence or degree of competition               with mitigating risks and identify any challenges
on airline routes and the frequency of delays and           associated with FAA’s implementation of ADS-B.
cancellations. To conduct this assessment, we are
developing econometric models of delays and




54  |  Work Pl anned and In Progress
In Progress

FAA’s Efforts To Streamline                          FAA’s Oversight of the
Its Process for Implementing                         Voluntary Disclosure
New Performance-Based                                Reporting Progr am
Flight Procedures
                                                     In 2006, FAA established the Voluntary Disclosure
In 2009, RTCA Task Force 5—a joint FAA-industry      Reporting Program (VDRP), which allows air carriers
task force—completed an assessment and identified    to voluntarily report adverse safety issues to the
near-term, performance-based flight procedure        Agency without fear of enforcement actions. While
priorities for 2012 to 2018. Recommendations focus   this program provides an important opportunity to
on developing high-value flight procedures that      identify and mitigate safety issues that might not
rely on equipment already on board aircraft and      otherwise come to FAA’s attention, the program
resolving longstanding approval and certification    also requires close monitoring to ensure that it is
issues for new flight procedures. In response to     not misused. The FAA Modernization and Reform
the Task Force’s recommendations, FAA performed      Act of 2012 mandated that OIG examine FAA’s
a study (the NAV Lean Project) that identified       oversight of VDRP. Accordingly, our audit objectives
21 needed improvements. However, these               are to determine whether FAA ensures that air
improvements could take several years to complete,   carriers’ disclosure reports meet VDRP requirements,
and new flight procedures have not to date yielded   including the development and implementation of
expected benefits. At the request of the Chairman    effective corrective actions, and whether FAA uses
of the House Transportation and Infrastructure       VDRP data to identify safety risks.
Committee and the Chairman and Ranking Member
of the Subcommittee on Aviation, we are assessing
FAA’s progress in providing new high-value,
performance-based navigation procedures and
implementing improvements recommended by the
NAV Lean Project.




                                                 Semiannual Report to Congress  |  55
In Progress

FAA Policy Regarding Use of                                 However, it is unclear whether these initiatives are
                                                            achieving expected efficiencies. At the request of
Unmanned Aircr aft Systems
                                                            the Chairman and Ranking Member of the House
At the request of the Chairmen and Ranking                  Transportation and Infrastructure Subcommittee
Members of the Senate Commerce, Science,                    on Aviation, we are reviewing operational data to
and Transportation Subcommittee on Aviation                 determine whether FAA’s productivity and efficiency
Operations, Safety, and Security, as well as the            initiatives are achieving their expected benefits and
Chairmen and Ranking Members of the House                   will result in cost savings to the Agency.
Transportation and Infrastructure Subcommittee on
Aviation, we are assessing FAA’s efforts to mitigate        FAA-NATCA Collective
safety risks for integrating UAS into the National          Bargaining Agreement
Airspace System and progress and challenges                 Extension
in meeting the UAS requirements of the FAA
Modernization and Reform Act of 2012.                       Effective October 1, 2012, FAA and the National
                                                            Air Traffic Controllers Association (NATCA) agreed
Air Tr affic Controller                                     to extend their existing collective bargaining
Productivity                                                agreement through July 1, 2016. This agreement
                                                            extends the original 3-year collective bargaining
Between fiscal years 2000 and 2012, air traffic             agreement and includes a memorandum of
operations dropped by 21 percent while controller           understanding covering pay. Our objectives are to
staffing levels remained essentially unchanged,             identify provisions in the 2012 collective bargaining
resulting in controller productivity dropping               agreement extension that put FAA at risk for
by nearly 23 percent. FAA introduced several                unanticipated costs and assess the effectiveness of
initiatives in its initial controller workforce plan that   FAA’s policies, procedures, and internal controls in
it stated would improve operational productivity            preventing cost escalations.
and encourage efficiency within the workforce.




56  |  Work Pl anned and In Progress
In Progress

FAA’s Efforts To Address                                  recommended that FAA require ground movement
                                                          safety systems at airports to prevent collisions and
Runway Incursions
                                                          provide direct warnings to flight crews. In response,
After FAA implemented initiatives from its August         FAA designed Airport Surface Detection Equipment-
2007 Call to Action Plan for Runway Safety, the           Model X (ASDE-X). We are assessing FAA’s progress
number of runway incursions decreased. However,           in integrating ASDE-X with other runway safety
this trend is reversing. Between fiscal years 2011        technologies, such as Runway Status Lights and
and 2012, the total number of all runway incursions       ADS-B to improve runway safety.
increased 21 percent, from 954 to 1,150. The
Ranking Member of the House Transportation and            FAA’s Oversight of European
Infrastructure Subcommittee on Aviation requested         Union Repair Stations
that we examine FAA’s Runway Safety Program and
the Agency’s actions to improve safety. Accordingly,      In May 2013, FAA completed its transfer of direct
our objectives are to evaluate FAA’s progress             oversight of repair stations in the European Union
in implementing initiatives to prevent runway             (EU) to the national aviation authorities of those
incursions, and effectiveness in reporting and            countries. These authorities will be responsible for
evaluating runway incursions.                             monitoring over 400 FAA-certificated repair stations
                                                          located in 18 EU countries. Our objectives are to
FAA’s Surface Surveillance                                assess the Agency’s monitoring of FAA-certificated
                                                          repair stations operating under the U.S.-EU Aviation
Progr ams for Runway Safety
                                                          Safety Agreement to ensure they meet Agency
Since 1990, preventing aircraft ground collisions         standards, and evaluate the effectiveness of FAA’s
and runway incursions has been on the National            process to transfer oversight of EU repair stations to
Transportation Safety Board’s (NTSB) “Most Wanted         national aviation authorities.
List” of the most critical changes needed to reduce
transportation accidents and save lives. NTSB




                                                       Semiannual Report to Congress  |  57
In Progress

DOT’s Oversight and                                      civil penalties, the program provides an important
                                                         opportunity to identify and mitigate hazmat
Enforcement of Long,
                                                         safety issues that might not otherwise come to
On-Board Flight Delays                                   the Agency’s attention. We initiated this audit to
                                                         determine whether FAA ensures that air carriers’
OIG’s work over the past decade has shown that
                                                         disclosure reports meet VDRP requirements,
strong oversight of airline passenger protections
                                                         including the development and implementation of
is needed. We recommended several actions that
                                                         effective corrective actions, and whether FAA uses
DOT has taken to strengthen the accountability,
                                                         VDRP data to identify safety risks, including the risks
enforcement, and protection afforded to air
                                                         from unauthorized, undeclared shipments.
travelers. We are assessing the effectiveness of DOT’s
oversight and enforcement of airlines’ and airports’     FAA’s Organizational
compliance with requirements relating to long, on-
board flight delays.                                     Structure
                                                         The Chairmen of the House Transportation and
FAA’s Oversight of the
                                                         Infrastructure Subcommittee on Aviation requested
Hazardous Materials                                      that we assess FAA’s organizational structure,
Voluntary Disclosure                                     including whether the Agency’s recent reforms have
Reporting Progr am                                       improved its operations and the implementation
                                                         of new technology while reducing operating costs.
Each year, about 50,000 routine providers of             The Chairmen also expressed interest in how FAA’s
hazardous materials ship hazmat packages by              organizational and financial structure compares with
air on more than 400 air carriers, both U.S. and         other nations’ structures. Accordingly, our objectives
foreign. Hazmat air shipments can present serious        are to determine whether FAA reforms implemented
safety risks—especially when the materials are           since 1995 have improved the efficiency of air traffic
unauthorized and undeclared. To help address             operations, reduced Agency costs, and expedited
the safety concerns raised by hazmat shipments           delivery of new technologies and to compare the
by air—including unauthorized, undeclared                processes used by different countries to deliver air
shipments—FAA established VDRP. By allowing              traffic services and implement new technologies.
air carriers to voluntarily disclose violations of
hazardous materials regulations without receiving




58  |  Work Pl anned and In Progress
In Progress

FAA’s Progress in Reducing                             FAA’s Response to NextGen
Helicopter Emergency                                   Advisory Committee’s
Medical Services (HEMS)                                Recommendations on
Accidents                                              NextGen Investment
                                                       Priorities
HEMS operators provide an important service to
the public by transporting seriously ill and injured   Since FAA launched NextGen—a multibillion-
patients and life-saving donor organs and blood        dollar project aimed at modernizing our Nation’s
to emergency care facilities. HEMS operations are      aging air traffic control system—we have identified
frequently conducted in high-risk situations with      longstanding challenges, including FAA’s inability
challenging flight environments, including night       to set realistic plans, budgets, and expectations
flight, poor weather or visibility, and flight into    and clearly identify benefits for stakeholders. To
unfamiliar landing sites. In addition, the number of   address some of these challenges, FAA is working
helicopters providing emergency medical service        with industry to set priorities for NextGen. In its
in the United States has grown nearly 300 percent      September 2013 report, the NextGen Advisory
since the mid-1990s. While the industry safely         Committee—a Federal advisory committee
transports over 400,000 patients in the United         that includes representation from operators,
States each year, the HEMS accident rate has almost    manufacturers, air traffic management, aviation
doubled over the past 2 decades. At the request        safety, airports, and environment experts—
of the House Committee on Transportation and           identified the top investment priorities for NextGen
Infrastructure, we are evaluating FAA’s progress in    and made recommendations for addressing these
meeting requirements for emergency helicopter          priorities. At the request of the Chairman and
operations established in the FAA Modernization        Ranking Member of the House Transportation and
and Reform Act of 2012 and the status of FAA’s other   Infrastructure Subcommittee on Aviation, we are
efforts to reduce the HEMS accident rate.              examining the steps FAA is taking to address the
                                                       recommended investment priorities and evaluating
                                                       FAA’s plans for implementation.




                                                   Semiannual Report to Congress  |  59
In Progress

FAA Oversight of Cockpit                                   FAA’s Implementation of a
Automation and Pilot                                       Pilot Records Database
Performance
                                                           In September 2013, the Chairman and Ranking
Commercial airline pilots increasingly rely on             Member of the House Transportation and
sophisticated automation in the cockpit to fly             Infrastructure Subcommittee on Aviation requested
aircraft in all phases of flight. While rapid advances     that we examine FAA and industry’s progress in
in cockpit automation can increase safety and              implementing the new pilot records database,
efficiency, they also limit the opportunities pilots       as mandated by the 2010 Airline Safety and FAA
have to maintain their flying skills. Further, according   Extension Act. Accordingly, we are assessing FAA’s
to a recent FAA study, the growing adherence to            progress in developing and implementing the
computer-assisted flying—and the confusion that            pilot records database, and determining what pilot
can result when pilots fail to keep up with computer       records are available for air carriers to obtain and
advances—are considered major factors in airline           review for new applicants.
crashes worldwide. We are assessing FAA’s oversight
of pilot training programs to determine whether
FAA has established regulations for using flight deck
automation and evaluating pilots’ abilities to use the
systems while maintaining proficiency in manual
flight operations.




60  |  Work Pl anned and In Progress
Planned

FAA Data Communications                                     FAA’s Organization
                                                            Delegation Authorization
DataComm, a NextGen transformational program,
is expected to provide digital communications               Progr am
with data link capability for routine pilot-controller
                                                            Delegating authority to certify aircraft—and their
communications, including air traffic clearances,
                                                            continued airworthiness—is a longstanding and
advisories, and flight crew requests and reports.
                                                            essential aviation practice because FAA does not
Airspace users have raised significant concerns
                                                            have the staff to oversee every facet of a large
about DataComm’s development, and industry
                                                            and diverse aircraft industry. Moreover, Title 49
and FAA have not reached consensus on how to
                                                            United States Code Part 44702 allows FAA to
implement the technology. We plan to conduct
                                                            delegate certain functions to private individuals
an audit to determine whether FAA’s acquisition
                                                            or organizations that perform certification work,
strategy for DataComm addresses the cost,
                                                            such as approving elements of new aircraft designs,
schedule, and performance risks associated with
                                                            on behalf of the Agency. In 2005, FAA created
DataComm development and whether there are
                                                            the Organizational Designation Authorization
difficulties or uncertainties in integrating new
                                                            (ODA) program to consolidate the various types of
DataComm services with existing or planned
                                                            organizational delegations under one program and
automation platforms, such as the Standard
                                                            standardize oversight. At the request of a Member
Terminal Automation Replacement System and the
                                                            of the House Transportation and Infrastructure
En Route Automation Modernization.
                                                            Committee, we plan to assess FAA’s process for
                                                            determining whether staffing levels are adequate
                                                            to conduct ODA oversight and the effectiveness
                                                            of FAA’s oversight of the ODA program’s delegated
                                                            organizations.




                                                         Semiannual Report to Congress  |  61
Planned

Performance-Based                                        Controller Staffing at
Navigation (PBN) Automation                              Critical Air Tr affic Control
Tools                                                    Facilities
Implementing PBN flight procedures is a                  FAA currently employs more than 14,600 air traffic
cornerstone of FAA’s NextGen development. These          controllers and is planning to hire over 6,200 more
new procedures allow for more direct flight paths        in the next 5 years to keep pace with expected
and can provide significant benefits, such as fuel       attrition. In a 2012 review of air traffic controller
savings and increased air traffic capacity. Many of      staffing and training at FAA’s most critical facilities,
the Nation’s airlines have equipped their aircraft and   we found the number of experienced controllers
trained their pilots to use these new procedures, but    to manage the air traffic and train newly hired
progress has been slow. A barrier to maximizing the      controllers was decreasing while the retirement
benefits of PBN procedures has been the lack of air      eligibility rate was increasing. The Consolidated
traffic controller automated decision support tools      Appropriations Act of 2014 directed our office to
that help identify and manage aircraft with differing    conduct a follow-up review. We plan to determine
capabilities. At the request of the Chairmen and         whether FAA’s most critical facilities are staffed
Ranking Members of the House Transportation and          in accordance with FAA’s plans, and how training
Infrastructure Subcommittee on Aviation, we plan to      needs and retirements impact controller resources.
assess FAA’s progress in developing and deploying
new air traffic controller automation tools needed to
maximize the use of PBN procedures, particularly at
higher activity air traffic facilities.




62  |  Work Pl anned and In Progress
H I G H WAY A N D T R A N S I T

In Progress

FTA’s National Tr ansit                                  FHWA’s Implementation
Database (NTD)                                           of OIG’s Bridge Progr am
                                                         Recommendations and
Congress, Federal agencies, and transit industry
stakeholders rely on NTD—the Nation’s primary            MAP-21’s Bridge Provisions
source of data on U.S. transit systems—to make
                                                         The May 2013 collapse of a portion of the Skagit
sound planning and investment decisions. FTA
                                                         River Bridge in Washington State brought renewed
apportions over $6 billion annually in formula grants
                                                         attention to the safety and conditions of the Nation’s
to nearly 2,000 urban and rural transit agencies
                                                         bridges. FHWA is responsible for overseeing States’
based on NTD data. Our objectives are to evaluate
                                                         compliance with the National Bridge Inspection
FTA’s oversight of NTD data to ensure submissions
                                                         Standards and with statutory provisions for Federal
from grant recipients and beneficiaries of transit
                                                         bridge funding. Since 2006, we have issued three
funds for the Urbanized Area Formula Program are
                                                         reports recommending improvements to FHWA’s
complete, accurate, and timely.
                                                         oversight of bridge programs. At the request of
FHWA’s Workforce Planning                                the Ranking Member of the House Transportation
                                                         and Infrastructure Committee, we initiated a series
Efforts                                                  of audits related to bridge safety. In this first audit,
                                                         we are assessing the actions FHWA has taken to
To accomplish its mission and oversee States’ use
                                                         respond to our prior recommendations and the
of Federal highway funds, FHWA has a workforce
                                                         bridge safety provisions in MAP-21.
of about 3,000 staff at Headquarters, 52 State
Division Offices, and other field locations. In recent
years, Congress and the Administration called on
Federal agencies to improve accountability in their
operations and ensure effective use of resources.
Accordingly, we are reviewing FHWA’s processes
and procedures for assessing its workforce needs,
including whether it has evaluated the impact of the
Moving Ahead for Progress in the 21st Century Act
(MAP-21) on its workforce.




                                                     Semiannual Report to Congress  |  63
In Progress

FHWA’s Oversight of                                        FHWA’s Oversight of
Bridge Safety                                              Major Projects
FHWA established the National Bridge Inspection            FHWA provides financial assistance and oversight
Standards for proper safety inspections of public          to States on major highway and bridge projects.
highway bridges and oversees States’ efforts to            Federal law defines major projects as those with
ensure that bridges within their jurisdictions are         estimated costs of $500 million or more and that
safe. In 2011, FHWA announced a new bridge safety          require States to prepare financial plans and project
initiative designed to more consistently monitor           management plans. These plans are intended to
States’ bridge inspection processes and to target          be living documents that are updated to reflect
problem areas in specific States. For this second,         conditions as projects progress and ensure project
more comprehensive audit initiated in response to          decisionmakers effectively manage cost, schedule,
a congressional request, we are assessing Division         and funding. Our objectives are to determine
Offices’ oversight of States’ bridge inspection            whether FHWA verified that States’ initial and
programs and FHWA’s efforts to identify and address        updated financial and project management plans
high-priority bridge safety risks at the national level.   met FHWA guidance, and to identify whether
                                                           additional project delivery tools are available
FHWA’s Oversight of                                        or being used to manage major projects’ costs,
Recovery Act Project                                       schedules, and funding.
Closeouts                                                  NHTSA’s Oversight of
Prompt closeout of ARRA projects allows unused             Highway Safety Gr ants
funds on completed projects, with no pending
expenditures, to be used on other projects still           NHTSA awards formula and incentive grants to
under construction. Project closeout is also a critical    States for a wide range of highway safety programs
step for an accurate final accounting of the States’       aimed at reducing the fatalities, injuries, and
use of Federal-aid highway funds, including those          economic losses caused by motor vehicle crashes.
from ARRA. We are assessing FHWA’s oversight of            Such programs include promoting safety belt use
closeouts of completed ARRA highway projects and           and discouraging alcohol-impaired driving. We are
determining whether closeouts are timely.                  evaluating NHTSA’s oversight of State-administered
                                                           safety grant programs to ensure grantees meet key
                                                           Federal requirements and determining whether
                                                           NHTSA effectively tracked grantees’ deficiencies and
                                                           corrective actions.




64  |  Work Pl anned and In Progress
In Progress

FTA’s Oversight of Hurricane                              FTA’s Effort To Identify,
Sandy Emergency Relief                                    Promote, and Deploy Low
Funds—Phase 2                                             or No Emission Bus and
                                                          Other Tr ansit-Focused
In October 2012, Hurricane Sandy caused
widespread damage in the mid-Atlantic and                 Technologies
northeastern United States, particularly to
                                                          FTA is responsible for identifying low or no emission
transportation infrastructure. The Disaster Relief
                                                          bus technologies, promoting their use by State and
Appropriations Act of 2013 designated more than
                                                          local transit agencies, and deploying those buses
$13 billion for infrastructure investments across
                                                          and other transit-focused technologies. The goal
several modes of transportation and funds for
                                                          is to encourage State and local transit agencies to
our office to oversee DOT’s administration of the
                                                          more widely adopt reliable “green energy” buses. In
relief funds. To comply with the act, we initiated a
                                                          response to a congressional directive accompanying
three‑phase audit strategy. We completed phase 1
                                                          the fiscal year 2014 appropriations act, we are
in December 2013. For phase 2, we are determining
                                                          identifying whether FTA has opportunities
whether FTA has fully implemented the processes it
                                                          to improve its identification, promotion, and
established to award and oversee Hurricane Sandy
                                                          deployment of low or no emission buses and other
relief funds, assessing FTA’s controls to prevent
                                                          transit-focused technologies.
duplicate payments from the Federal Emergency
Management Agency and insurance companies,
and identifying any issues that may impact the
obligation and expenditure of Hurricane Sandy
funds.




                                                       Semiannual Report to Congress  |  65
Planned

DOT’s Efforts To Implement                             FMCSA’s Oversight of Motor
MAP-21 Project and Progr am                            Carrier Safety Assistance
Delivery Requirements—                                 Gr ants
Phase 2
                                                       To help combat crashes and fatalities, FMCSA
To continue meeting our mandate to assess the          awards annual safety grants to State agencies and
Department’s implementation of MAP-21’s Subtitle       other stakeholders through the Motor Carrier Safety
C project and program delivery reforms, we will        Assistance Program (MCSAP), FMCSA’s largest grant
undertake phase 2 of our work. Specifically, we will   program. For fiscal year 2014, MAP-21 provided
continue assessing the status of DOT’s reforms and     $218 million for MCSAP grants. Accordingly, we plan
drill down on certain provisions according to risks    to assess FMCSA’s efforts to oversee States’ use of
that emerged during our phase 1 audit.                 MCSAP grants.

Identifying and                                        FHWA’s Assessments of State
Investigating Vehicle Safety                           Financial Oversight
Defects                                                FHWA oversees approximately $37 billion in Federal
                                                       aid provided annually to States for thousands of
In early 2014, General Motors Corporation reported
                                                       highway and bridge projects. FHWA relies on a
an ignition defect in vehicles dating back to 2003,
                                                       risk-based approach to ensure States use these
raising concerns about the timeliness of the recall
                                                       funds in accordance with Federal requirements. In
and the adequacy of NHTSA’s efforts to identify
                                                       fiscal year 2005, FHWA implemented the Financial
vehicle safety defects. As a result, the Secretary
                                                       Integrity Review and Evaluations (FIRE) program,
requested that we undertake a review of NHTSA’s
                                                       which involves annual assessments of State financial
safety functions and processes related to the
                                                       oversight and management activities pertaining to
General Motors recall. We plan to initiate an audit,
                                                       Federal highway funds. FIRE is intended to respond
building on our previous assessments of NHTSA’s
                                                       to internal control weaknesses in FHWA’s inactive
oversight of vehicle safety.
                                                       obligations that we previously identified. We plan
                                                       to assess the FIRE reviews’ compliance with Agency
                                                       policies and procedures to determine whether they
                                                       are used effectively in FHWA’s risk-based oversight
                                                       approach.




66  |  Work Pl anned and In Progress
R A I L , M A R I T I M E , H A Z M AT T R A N S P O R T,
A N D E CO N O M I C A N A LYS I S

In Progress

FR A’s Oversight of the                                     Administrations in reviewing applications. Our
                                                            objective is to determine the extent to which
R ailroad Rehabilitation
                                                            PHMSA has addressed program weaknesses,
and Improvement Financing                                   focusing on the Agency’s implementation of
(RRIF) Progr am                                             standard procedures for processing special permits
                                                            and approvals, and its attention to fitness, safety,
The RRIF program—established in 1998 by the                 and coordination.
Transportation Equity Act for the 21st Century—
authorizes FRA to provide loans and loan                    The United States Merchant
guarantees to railroads and other eligible entities to      Marine Academy’s (USMMA)
finance the development of railroad infrastructure.
We are conducting an audit of FRA’s oversight               Progress in Addressing
of RRIF and the effectiveness of the program’s              Sexual Har assment and
support to railroads and other entities in achieving        Sexual Assault
improvements to the Nation’s rail infrastructure.
Our objectives are to assess FRA’s policies and             Fewer than half of USMMA’s female upperclassmen,
procedures for evaluating and selecting RRIF                faculty, and staff believe that senior leadership
applications, and to identify factors that affect           has created a climate that is intolerant of sexual
prospective applicants’ decisions on whether to             harassment and sexual assault, according to the
apply for RRIF credit assistance.                           Academy’s most recent publicly available survey
                                                            conducted during the 2009–2010 academic year.
PHMSA’s Progress in                                         The Ranking Member and another Member of the
Improving its Special Permits                               House Committee on Oversight and Government
                                                            Reform requested that we conduct a comprehensive
and Approvals Progr am
                                                            evaluation of the Academy, which is operated
PHMSA, through its Special Permits and Approvals            by the Maritime Administration (MARAD)—
Program, grants approvals for activities allowed            specifically, its efforts to create a climate in which
under certain conditions identified in the Hazardous        sexual harassment and sexual assault are not
Materials Regulations. In 2009 and 2010, we                 tolerated. Accordingly, our objectives are to assess
reported on serious weaknesses in the program,              USMMA’s implementation of its action plan to
including the Agency’s assessment of applicants’            prevent, respond to, and resolve instances of sexual
fitness to comply with special permit and approval          harassment and sexual assault and assess DOT’s
conditions, evaluation of applicants’ proposed safety       oversight of the Academy’s sexual harassment and
measures, and coordination with other Operating             sexual assault prevention, response, and resolution




                                                         Semiannual Report to Congress  |  67
In Progress                                            Planned

efforts, including MARAD’s management of these         FR A’s Management of Safety
efforts.
                                                       Data
FR A’s High Speed Intercity                            FRA collects accident and incident data from
Passenger R ail Gr ant                                 railroads to inform its National Inspection Plan. FRA
Amendment and Oversight                                uses the plan to target inspection resources and
                                                       monitor how regions meet their inspection goals.
Processes
                                                       We plan to conduct an audit of FRA’s management
FRA’s HSIPR grant program is intended to help          of its safety data to assess the Agency’s
address the Nation’s transportation challenges by      management of accident and incident data and its
investing in an efficient high-speed rail network.     oversight of railroads’ processes for collecting and
Since 2009, Congress has appropriated over $10         reporting rail safety data to FRA.
billion for this program. As of September 2013,
FRA had obligated nearly all of these funds and
                                                       FR A’s Oversight and
disbursed approximately $1.4 billion. Nearly 85        Management of Amtr ak
percent of the funding obligated to date has been      Gr ants
dedicated to six corridors, with the California
corridor receiving the largest portion—$3.9 billion.   FRA provides annual grants to Amtrak in excess
In September 2012, we reported that FRA’s lack of      of $1 billion to subsidize its operations. The grant
an effective grants administration framework put       agreements require Amtrak to meet certain terms
Federal funds at risk. In response to a request from   and conditions. We plan to conduct an audit to
the Chairmen of the House Transportation and           review FRA’s administration of these grants and
Infrastructure Subcommittee on Railroads, Pipelines,   whether FRA ensures that Amtrak complies with
and Hazardous Materials, we are evaluating FRA’s       the requirements. Our objectives will be to assess
policies, procedures, and processes for amending       FRA’s performance metrics for measuring Amtrak’s
HSIPR grant agreements and for identifying and         grant compliance and FRA’s use of these metrics to
mitigating funding risks to federally funded HSIPR     monitor the performance and success of Amtrak
projects.                                              projects.




68  |  Work Pl anned and In Progress
FINANCIAL AND
I N F O R M AT I O N T E C H N O LO G Y

In Progress

Quality Control Review of                                 FAA’s Air Tr affic Control
Standards for Attestation                                 System Command Center
Engagements: Review of                                    (ATCSCC)
DOT’s Enterprise Services
                                                          FAA’s ATCSCC systems help manage air traffic flow,
Center                                                    resolve inter-air traffic facility issues, and assess
                                                          weather and other conditions that stress the
We are performing a quality control review
                                                          National Airspace System. FAA must ensure that the
of the audit performed by an independent
                                                          data systems are available and uncompromised. We
public accounting firm to determine whether
                                                          are assessing ATCSCC systems’ information security
(1) management’s description of the service
                                                          controls, including whether FAA is identifying
organization’s systems are fairly presented;
                                                          security risks and properly mitigating them.
(2) controls are suitably designed; and (3) controls
operate effectively during the period of October 1,       FAA’s Automatic Dependent
2013, to June 30, 2014.
                                                          Surveillance-Broadcast
DOT’s Information Security                                System
Progr am and Pr actices for
                                                          FAA’s ADS-B system is expected to provide pilots
Fiscal Year 2014                                          and controllers with information on aircraft location
                                                          through satellite-based surveillance technology
As mandated by FISMA, we are performing an
                                                          and aircraft avionics that will complement ground-
annual review of DOT’s information security
                                                          based radar systems. The FAA Modernization Reform
program and practices to determine their
                                                          Act of 2012 requires OIG to determine how FAA
effectiveness.
                                                          addresses security issues in ADS-B’s design and
                                                          implementation. Accordingly, we are assessing FAA’s
                                                          identification and resolution of security issues in
                                                          ADS-B’s development and implementation.




                                                       Semiannual Report to Congress  |  69
In Progress

Quality Control Review of                           DOT’s Tr avel Card Progr am
DOT’s Fiscal Years 2014 and
                                                    We are conducting an audit of DOT’s travel
2013 Consolidated Financial                         card program. Issued by the General Services
Statements and FAA’s,                               Administration’s SmartPay® program, these cards are
SLSDC’s, and NTSB’s Financial                       used by DOT employees to pay for expenses related
                                                    to official Government travel. In fiscal year 2011, DOT
Statements                                          employees made 1.2 million payments or charges
                                                    totaling $172 million on their travel cards. A prior
We are performing a quality control review of the
                                                    DOT audit on travel card use identified instances of
audits performed by independent public accounting
                                                    employees using their cards to purchase personal
firms to determine whether the audits were
                                                    items and withdraw cash in excess of their travel
performed in accordance with applicable auditing
                                                    needs, and not paying bills on time. We are
standards.
                                                    assessing DOT’s internal controls to determine their
Quality Control Reviews                             effectiveness in preventing and detecting travel
                                                    charge abuse and misuse.
of Single Audits on DOT
Gr antees                                           DOT’s Privacy Management
                                                    Progr am
We are performing a quality control review of the
audits performed by independent public accounting   As mandated by the Appropriations Act of 2008,
firms on grant recipients’ use of DOT funds.        OIG performs periodic reviews of DOT’s privacy
                                                    management program to determine whether DOT
                                                    has an effective privacy management program
                                                    and adequately protects personally identifiable
                                                    information.




70  |  Work Pl anned and In Progress
In Progress

DOT’s Use of Earned Value                                  of accounts receivable and include exhaustive
                                                           attempts to collect delinquent accounts.
Management
OIG and the Government Accountability Office               DOT’s Tr ansition to Cloud
have previously reviewed DOT’s use of earned               Computing
value management (EVM)—a tool to plan, execute,
and control IT project costs and schedules—and             Cloud computing provides on-demand access to a
have made recommendations to implement EVM.                shared pool of computing resources and reportedly
However, there has been limited followup to                has the potential to deliver services faster, more
determine the status of DOT’s EVM implementation           efficiently, and at a lower cost than custom-
and assess its guidelines’ compliance with EVM             developed systems. OMB’s “Cloud First” policy
statutes, policy, and standards. We are assessing          requires Federal agencies to implement cloud-
DOT’s management and monitoring of IT                      based solutions whenever a secure, reliable, and
investments, its controls to ensure the IT Investment      cost-effective cloud option exists. We are assessing
Manager performs EVM as an integral part of                DOT’s process for transitioning IT services to cloud
standard investment management operations,                 computing,and for identifying and mitigating
performance measurement baselines for IT                   security risks associated with this transition.
investments, and methodology for analyzing and
using EVM data to assess and monitor contract              FAA’s Accountable Personal
performance.                                               Property
DOT’s Controls Over                                        In July 2013, we reported that FAA purchase
Collection of Accounts                                     cardholders under DOT’s Purchase Card Program
                                                           and property delegates at the Mike Monroney
Receivable                                                 Aeronautical Center in Oklahoma City, OK, did not
                                                           always follow policy for recording accountable
The Debt Collection Improvement Act requires
                                                           personal property, such as computers and digital
agencies to follow standardized procedures to
                                                           cameras. We are assessing FAA’s internal controls for
ensure collection of delinquent non-tax public debt.
                                                           managing non-capitalized accountable property
DOT’s public accounts receivable increased from
                                                           and determining the extent of compliance with
$85 million to $124 million between fiscal years
                                                           those controls.
2008 and 2009. We are assessing DOT’s controls
to determine if they ensure timely collection




                                                        Semiannual Report to Congress  |  71
Planned

FAA’s Security Controls for                           FAA’s Terminal R adar
the Data Communications                               Approach Control (TR ACON)
Progr am                                              Security Controls
Through DataComm, FAA plans to transition             FAA’s TRACON facilities handle air traffic 30 to 50
its current analog voice system to digital            nautical miles from an airport. We plan to assess the
communications. This transition is expected to        TRACON systems’ information security controls and
produce a number of operational benefits—             determine whether FAA is identifying security risks
including increased safety through reduced            and properly mitigating them.
operational errors, controller productivity, and
aircraft fuel savings—and provide infrastructure
support for other NextGen programs and
operational improvements. We plan to assess
DataComm systems’ IT security controls and
determine whether FAA is identifying security risks
and properly mitigating them.




72  |  Work Pl anned and In Progress
ACQ U I S I T I O N A N D P R O C U R E M E N T


In Progress

Followup on DOT’s                                         evaluating separate cost elements and proposed
                                                          profits. These price reasonableness determinations
Suspension and Debarment
                                                          provide agency contracting personnel with critical
(S&D) Progr am                                            information for evaluating proposals, conducting
                                                          sole-source negotiations, and promoting
S&D actions are among the Government’s strongest
                                                          competition. We are assessing FLH’s policies,
tools to deter unethical and unlawful use of Federal
                                                          procedures, and practices to determine if they meet
funds. In January 2010, we reported that DOT’s
                                                          Federal and DOT requirements for ensuring price
S&D program lacked sufficient internal controls to
                                                          reasonableness in the award of fixed-price contracts.
prevent prohibited parties from obtaining contracts
and grants. Following our review, DOT began               Participation in DOT’s
taking corrective actions to improve its S&D policies
and procedures. However, recent work continues            Airport DBE and Airport
to show delays in DOT’s S&D decision-making               Concessions DBE (ACDBE)
process and untimely and inaccurate reporting of          Progr am
exclusionary S&D actions in the governmentwide
system. We are assessing DOT’s actions to determine       Under DOT’s airport DBE/ACDBE program, an airport
if its S&D decisions and reporting of exclusionary        receiving FAA grants must establish an annual goal
actions in the governmentwide system are timely           for DBE/ACDBE participation. To achieve its goal,
and accurate.                                             an airport seeks to award contracts or concession
                                                          agreements to certified small businesses owned
FHWA’s Office of Feder al                                 by women or minorities. However, based on its
Lands Highways’ Efforts To                                concerns that discrimination against DBEs/ACDBEs
                                                          continues, Congress directed OIG to identify best
Ensure Price Reasonableness
                                                          practices for encouraging new airport DBE/ACDBE
on Fixed-Price Contr acts                                 participation, including businesses owned by
                                                          veterans, at large- and medium-sized airports. We
As of September 2013, FLH obligated approximately
                                                          are assessing DOT’s airport DBE/ACDBE programs
$253 million on fixed-price contracts for fiscal year
                                                          to determine the number of new and existing DBE/
2013. The Federal Acquisition Regulation requires
                                                          ACDBE firms hired at the Nation’s large and medium-
agencies to establish fair and reasonable prices
                                                          sized airports in fiscal year 2012 and to identify the
prior to awarding contracts, which helps ensure
                                                          best practices that led some airports to award more
agencies receive the best value for their acquisitions.
                                                          contracts and leases to new DBE/ACDBE firms.
To this end, agencies are required to conduct price
analyses that examine proposed prices without




                                                      Semiannual Report to Congress  |  73
In Progress

Volpe’s Management of                                 FAA’s Organizational
the Volpe Tr ansportation                             Structure
Information Project Support
                                                      Over the past 2 decades, FAA has undergone several
(V-TRIPS) Contr acts                                  reorganizations and structural changes in an effort
                                                      to improve operations and modernize equipment.
To provide IT technical support services for its
                                                      The most significant change occurred in 2000,
transportation systems projects and customers,
                                                      when President Clinton signed an executive order
the Volpe National Transportation Center relies on
                                                      creating the Air Traffic Organization. Additionally, in
V-TRIPS, a 5-year, $234-million contract awarded
                                                      1996, Congress exempted FAA from most Federal
to five contractors in 2010. Our past work on large
                                                      personnel and acquisition laws and granted the
service contracts has shown that agencies did not
                                                      Agency the authority to develop its own personnel
always ensure adequate competition or provide
                                                      and acquisition systems to better manage its unique
sufficient oversight of contractor performance.
                                                      workforce and technological needs. However, critical
Accordingly, we are assessing the V-TRIPS contract
                                                      modernization efforts have experienced long delays
to determine whether Volpe awarded the base
                                                      and cost overruns, and Congress is questioning
V-TRIPS contracts under competitive procedures,
                                                      whether FAA’s organizational changes have had
provides each awardee fair opportunities for task
                                                      their desired effects. At the request of the Chairmen
orders, and administers and oversees the contracts
                                                      of the House Transportation and Infrastructure
in accordance with Federal acquisition regulations
                                                      Subcommittee on Aviation, we are assessing FAA’s
and DOT policy.
                                                      reorganization to determine whether reforms
                                                      implemented since 1995 have improved air traffic
                                                      operations, reduced Agency costs, and expedited
                                                      delivery of new technologies and to compare the
                                                      processes used by different countries to deliver air
                                                      traffic services and implement new technologies.




74  |  Work Pl anned and In Progress
In Progress                                              Planned

DOT’s Compliance With                                    Fiscal Year 2013 New
Contr acting Officer                                     Participation in DOT’s
Certification and Warr ant                               Airport DBE/ACDBE Progr am
Requirements
                                                         The 2012 FAA Modernization and Reform Act
DOT’s contracting officers are responsible for           requires OIG to conduct three annual assessments
awarding and managing a portfolio of contracts,          of new participation in DOT’s airport DBE/ACDBE
which in fiscal year 2013 totaled $1.3 billion in        program. The act specifies that OIG identify best
obligations (excluding FAA). The Office of Federal       practices for encouraging new airport DBE/ACDBE
Procurement Policy requires that contracting             participation, including businesses owned by
officers’ certifications correspond with the dollar      veterans, at the Nation’s largest airports. Our first
value of contracts they are authorized to award          review, which is ongoing, covers new participation
and administer, and directs each agency’s chief          in fiscal year 2012. For our second review, we plan
acquisition officer to establish agency-specific         to identify new DBE/ACDBE numbers for fiscal year
certification and warrant requirements. DOT’s            2013 and further explore the factors that led some
Contracting Officer Warrant Program outlines the         airports to award more contracts and leases to new
Department’s standards and is intended to ensure         entrants to DOT’s DBE/ACDBE program.
that only properly trained and qualified employees
are appointed as contracting officers. We are
assessing DOT’s compliance with requirements
for certifying and assigning warrant levels to its
contracting officers and its oversight policies
and practices to determine whether they ensure
contracting officers meet applicable requirements.




                                                      Semiannual Report to Congress  |  75
Planned

DOT’s Contr act Closeout                             Quality Control Reviews
Processes                                            of the Metropolitan
                                                     Washington Airports
Effective contract closeout processes protect the
Government’s interests, minimize administrative      Authority’s Financial
costs for the Government and the contractor, and     Statements and Auditing
free excess funds for possible use elsewhere. From
fiscal years 2009 through 2013, DOT awarded          MWAA manages Ronald Reagan National Airport
over 21,800 contracts with end dates prior to        and Washington Dulles International Airport under a
December 31, 2013, that should be closed or in       lease with DOT and has responsibility for the Dulles
the closeout process. These contracts may include    Corridor Metrorail Project, with a $3.1 billion budget
unneeded funds that can be put to other use with     for phase 1—$977 million of which is Federal
the implementation of effective procedures and       investment—and cost estimates of $2.7 billion for
timely contract closeouts. We plan to determine      phase 2. The 2014 Consolidated Appropriations Act
whether OST and Operating Administrations            gave OIG authority to audit and investigate MWAA.
are closing contracts timely and efficiently in      Our prior work at MWAA has identified weaknesses
accordance with Federal and departmental             in its policies, processes, and internal controls.
regulations and using effective procedures to        Weaknesses identified include questionable
identify and de-obligate excess funds.               procurement practices, mismanagement, a lack of
                                                     overall accountability, and a lack of financial controls
                                                     for Federal funds. To determine MWAA’s compliance
                                                     with applicable standards, we plan to conduct
                                                     quality control reviews of MWAA’s fiscal year 2013
                                                     consolidated financial statements and its fiscal year
                                                     2013 single audit and to review the quality control
                                                     system in MWAA’s Office of Audit.




76  |  Work Pl anned and In Progress
    statistical
performance data




        Semiannual Report to Congress  |  77
STATISTIC AL PERFORM ANCE DATA




Summary of Performance
October 1, 2013 – March 31, 2014



Reports issued                                             32

Recommendations issued                                    114

Congressional testimonies                                   3

Total financial recommendations                  $532,418,000

   That funds be put to better use               $532,100,000

    Questioned costs                                 $318,000

Fines (and special assessments), restitution,
                                                $1,333,060,229
recoveries, and forfeitures

Indictments                                                34

Convictions                                                39




78  |  Statistic al Performance Data
Audits

Completed OIG Reports
October 1, 2013 – March 31, 2014
(dollars in thousands)a



                                      Number of      Number of Questioned         Unsupported Funds To Be Put
Category                                Reports Recommendations     Costs               Costs to Better Use
Internal Audits

Performance audits                           17                80          $0             $0           $14,100

Financial audits                              4                22          $0             $0         $518,000

Other OIG reports                             1                 0          $0             $0                  $0

Total for internal audit reports             22              102           $0             $0        $532,100

Grant Audits

Audits under Single Audit Act                10                12       $318              $0                  $0

Total completed OIG reports                  32              114        $318              $0        $532,100

a
 The dollars shown are the amounts reported to management.The actual amounts may change during final
resolution.

DOT programs and operations are primarily carried out by Department personnel and recipients of
Federal grants. As a result, our audits generally fall into one of three categories: (1) internal audits of
Departmental programs and operations, (2) audits of grant recipients, and (3) other OIG audits.




                                                    Semiannual Report to Congress  |  79
Audits

OIG Reports With Recommendations That
Questioned Costs
October 1, 2013 – March 31, 2014
(dollars in thousands)


                                                 Number of      Number of         Questioned      Unsupported
                                                   Reports Recommendations             Costs           Costsa
A      For which no management decision
       had been made by the start of the                 8               10              $2,444           $0
       reporting period
B      Which were issued during the
                                                         2                2               $318            $0
       reporting period

       Totals (A+B)                                     10               12              $2,762           $0

C      For which a management decision
       was made during the reporting                     5                6              $1,517           $0
       period

       (i) dollar value of disallowed costsa             3                3               $479            $0

       (ii) dollar value of costs not
                                                         2                3              $1,038           $0
            disallowedb
D      For which no management decision
       had been made by the end of the                   5                6              $1,245           $0
       reporting period

a
    Unsupported costs, if any, are also included in questioned costs.
b
    Includes reports and recommendations where costs were both allowed and disallowed.




80  |  Statistic al Performance Data
Audits

OIG Reports With Recommendations That
Funds Be Put to Better Use
October 1, 2013 – March 31, 2014
(dollars in thousands)


                                                                             Number of       Funds To Be Put to
                                               Number of Reports        Recommendations             Better Usea
A      For which no management decision
       had been made by the start of the                       2                         2           $124,426
       reporting period
B      Which were issued during the
                                                               2                         2           $532,100
       reporting period

       Totals (A+B)                                            4                         4          $656,526

C      For which a management decision
       was made during the reporting                           2                         2           $642,000
       period
       (i) dollar value of recommendations
                                                               0a                    0a                     $0
       that were agreed to by management
       (ii) dollar value of recommendations
       that were not agreed to by                              2a                    2a              $642,000
       management
D      For which no management decision
       had been made by the end of the                         2                         2            $14,526
       reporting period

a
    Includes reports and recommendations where costs were both allowed and disallowed.




                                                      Semiannual Report to Congress  |  81
Audits

OIG Reports Recommending Changes for
Safety, Economy, or Efficiency
October 1, 2013 – March 31, 2014



                                                                             Number of         Number of
                                                                               Reports    Recommendations
A     For which no management decision had been made by the start of
                                                                                     32               71
      the reporting period
B     Which were issued during the reporting period                                  20              110

      Totals (A+B)                                                                  52               181

C     For which a management decision was made during the reporting
                                                                                     32              118
      perioda
D     For which no management decision had been made by the end of
                                                                                    27                63
      the reporting perioda

a
    Includes reports where management both made and did not make decisions on recommendations.




    82  |  Statistic al Performance Data
Audits

Management Decisions Regarding
OIG Recommendations
October 1, 2013 – March 31, 2014
(dollars in thousands)


                                      Number of      Number of    Questioned   Unsupported Funds To Be Put
                                        Reports Recommendations        Costs        Costsa to Better Use
Unresolved as of 10/1/2013                  36              83        $2,444            $0       $124,426
Audits with findings during current
                                            22             114         $318             $0       $532,100
period
Total to be resolved                        58             197       $2,762             $0      $656,526
Management Decisions
Prior period auditsb                        18              36        $1,517            $0       $124,000
Current period auditsb                      17              90            $0            $0       $518,000
Total resolved                              35             126       $1,517             $0      $642,000
Age of Unresolved Auditsc
Less than 6 months old                      10              24         $318             $0           $14,100
6 months to 1 year                            9             24         $434             $0               $0
1 year to 18 months                           1              1            $0            $0               $0
18 months to 2 years                          4              7            $0            $0               $0
Over 2 years old                              6             15         $493             $0             $426
Unresolved as of 3/31/2014                  30              71       $1,245             $0           $14,526

a	
   Unsupported costs, if any, are also included in questioned costs.
b
  	Includes reports and recommendations where costs were both allowed and disallowed.
c
  	Considered unresolved if management decisions have not been made on all report recommendations.




                                                   Semiannual Report to Congress  |  83
Audits

Published OIG Reports
October 1, 2013 – March 31, 2014

DEPARTMENTWIDE

Internal Audits: Performance – 4 Reports

FISMA 2013: DOT Has Made             DOT has made some progress in its information security program, but its
Progress, but Its Systems Remain     systems remain vulnerable to significant security threats due to deficiencies
Vulnerable to Significant Security   in policies and procedures, enterprise-level controls, system controls, and
Threats                              management of known security weaknesses.
FI-2014-006
11/22/13

Top Management Challenges for        We issued our annual report on the top management challenges facing
Fiscal Year 2014                     the Department in fiscal year 2014. The seven issues comprising this
PT-2014-009                          year’s report are as follows: improving FAA’s oversight of the aviation
12/16/2013                           industry and the operations of the National Airspace System; identifying
                                     and addressing root causes of problems with NextGen and setting
                                     investment priorities; continuing actions to strengthen highway, transit, and
                                     pipeline safety; improving oversight of surface infrastructure investments
                                     and implementing statutory requirements; implementing requirements
                                     to address FRA’s expanded and traditional responsibilities; managing
                                     acquisitions and contracts to achieve results and save taxpayer dollars; and
                                     building a secure and modern IT infrastructure. This report was included in
                                     the Department’s Annual Financial Report, as required by law.


DOT’s Efforts To Reduce Spending     DOT delayed implementing the phases of the strategic sourcing
on Management Support Services       initiative that focus in part on management support services spending,
Contracts Have Been Delayed          and it lacked comprehensive plans and policies for implementing these
ZA-2014-019                          initiatives. DOT recently initiated actions that could provide a foundation
01/15/2014                           for improving its use of management support services contracts, such
                                     as revising its Acquisition Oversight and Risk Management Policy, but it
                                     has not implemented OMB’s suggested internal controls for managing
                                     and monitoring obligations for management support services contracts.
                                     Deferring these efforts to focus on management support services contracts
                                     has delayed opportunities to reduce spending and better manage these
                                     contracts.

84  |  Statistic al Performance Data
Audits

Quality Control Review of Controls       We conducted a quality control review of an attestation engagement
Over DOT’s Enterprise Services           performed by KPMG on the Enterprise Services Center’s description
Center QC-2014-020                       of its system and the suitability of the controls’ design and operating
01/15/2014                               effectiveness. Our quality control review disclosed no instances in which
                                         KPMG did not comply, in all material respects, with auditing standards.

Internal Audits: Financial – 1 Report

Quality Control Review of Audited        We conducted a quality control review of KMPG’s report on DOT’s
Financial Statements for Fiscal Years    financial statements for fiscal years 2013 and 2012. KMPG issued a clean
2013 and 2012                            unqualified audit opinion on DOT’s financial statements, but reported
QC-2014-015                              one material weakness and two significant deficiencies in internal control
12/16/2013                               over financial reporting. Our quality control review disclosed no instances
                                         in which KPMG did not comply, in all material respects, with auditing
                                         standards. Put $518 million to better use.

FEDERAL AVIATION ADMINISTRATION

Internal Audits: Performance – 6 Reports

More Comprehensive Data Are              Flight delays fell by 33 percent from 2000 to 2012, and the number of
Needed To Better Understand the          cancellations nationwide has decreased by 56 percent at the 55 major
Nation’s Flight Delays and Their         airports. However, data limitations hinder the Department’s ability to
Causes (also listed under the Office     track some of these delays and fully understand their causes. In addition,
of the Secretary of Transportation and   air carrier scheduling practices have had a major impact on reducing
the Research and Innovative Technology   the number of flight delays both nationwide and at specific airports,
Administration)                          such as by increasing scheduled gate-to-gate times and reducing flight
AV-2014-016                              volume. However, over-scheduling and congestion remain problems at
12/18/2013                               several major airports, particularly in the New York area. Finally, FAA’s
                                         capacity benchmarks have proven useful for assessing capacity needs at
                                         major airports; however, the Agency has not shared them with outside
                                         stakeholders and the general public since 2004.




                                                         Semiannual Report to Congress  |  85
Audits

FAA’s Safety Data Analysis and          FAA has made significant progress with implementing and encouraging
Sharing System Shows Progress, but      participation in ASIAS since 2007, and the program now captures
More Advanced Capabilities and          key confidential voluntary safety data from 95 percent of all Part 121
Inspector Access Remain Limited         operations. However, FAA’s use of ASIAS to predict safety risks is still years
AV-2014-017                             away, and the program does not yet contain data from non-commercial
12/18/2013                              sectors of the aviation industry that could also benefit from ASIAS’s safety
                                        analyses. In addition, we found that FAA does not allow its inspectors and
                                        analysts to use ASIAS’s confidential data for air carrier oversight due to
                                        complex data protection agreements. Although many of the inspectors
                                        we surveyed stated that access to nationwide trends from voluntary
                                        safety programs would improve air carrier oversight, FAA has not yet
                                        disseminated these data and safety trends to the field.

FAA Needs To Improve ATCOTS             Although FAA addressed 8 of 9 recommendations from OIG’s prior
Contract Management To Achieve Its      report, weaknesses in contract and program oversight continue. Due to
Air Traffic Controller Training Goals   lack of clearly defined requirements, the ATCOTS program experienced 4
ZA-2014-018                             consecutive years of cost overruns, totaling about $89 million. FAA has also
12/18/2013                              not been able to achieve goals to reduce training time and innovate training
                                        and has not measured progress toward its goal to reduce training costs.
                                        In addition, FAA’s cost incentives were ineffective for controlling costs,
                                        and the performance measures FAA used for award fees were not tied to
                                        enhancing contract goals. Put $14.1 million to better use.

FAA Made Limited Progress in            Title II of the FAA Modernization and Reform Act of 2012 includes
Implementing NextGen Provisions         24 provisions intended to help FAA better manage and advance NextGen
of the FAA Modernization and            and other modernization efforts. FAA had implemented or was on target
Reform Act of 2012                      to implement about half of these provisions; however, FAA has yet to
AV-2014-027                             implement several provisions that are key to achieving the full benefits
01/28/2014                              of NextGen. Longstanding programmatic and organizational challenges
                                        have hindered FAA’s efforts to meet the act’s provisions, including
                                        technical complexity; collaboration with other Government and aviation
                                        stakeholders; and financial concerns, including meeting the provisions of the
                                        Budget Control Act of 2011.




86  |  Statistic al Performance Data
Audits

Inspector General Review of Fiscal   During our review, no information came to our attention that would
Year 2013 Drug Control Funds and     reverse FAA’s assertions that its fiscal year 2013 Drug Control Obligation
Performance Summary Reporting        Summary and Performance Summary reports complied, in all material
FI-2014-028                          respects, with the requirements of the ONDCP Circular, Accounting of
01/31/2014                           Drug Control Funding and Performance Summary, dated January 18, 2013.

Addressing Underlying Causes         From January 2009 through May 2013, FAA made 157 NextGen-related
for NextGen Delays Will Require      decisions in its EA. Despite this progress, some critical EA decisions have
Sustained FAA Leadership and         not been made. Overall, the EA’s usefulness as a strategic planning tool for
Action                               NextGen has been limited due to incomplete information, a lack of policy
AV-2014-031                          and guidance, and unresolved NextGen design decisions. Longstanding
02/25/2014                           programmatic and organizational challenges further undermine NextGen’s
                                     progress, including the lack of an executable plan, delays in fielding
                                     foundational air traffic management hardware and software, frequent
                                     changes in senior leadership, and an industry that remains reluctant to
                                     invest in NextGen. FAA’s recent reorganization may better position the
                                     Agency to meet its NextGen goals. However, it is too early to fully assess
                                     the reorganization’s effectiveness, in part because FAA has been slow to
                                     fill key leadership positions and best practices have yet to be captured or
                                     implemented.

Internal Audits: Financial – 1 Report

Quality Control Review of the        We conducted a quality control review of KMPG’s report on FAA’s
Federal Aviation Administration’s    financial statements for fiscal years 2013 and 2012. KMPG issued an
Audited Financial Statements for     unqualified opinion on DOT’s financial statements, but reported three
Fiscal Years 2013 and 2012           significant deficiencies in internal control over financial reporting and
QC-2014-014                          found instances of reportable noncompliance with the laws and regulations
12/13/2013                           tested. Our quality control review disclosed no instances in which KPMG
                                     did not comply, in all material respects, with auditing standards.

Grant Audits: Audits of Grantee Under Single Audit Act – 2 Reports

City of Marion, OH                   We recommend FAA improve grantee oversight. $15,858 questioned.
SA-2014-024
01/23/2014




                                                     Semiannual Report to Congress  |  87
Audits

State of Minnesota (also listed under   Findings concerning the use of ARRA funds were identified. We
the Federal Highway Administration)     recommend FAA and FHWA improve grantee oversight.
SA-2014-026
01/23/2014

FEDERAL HIGHWAY ADMINISTRATION

Internal Audits: Performance – 1 Report

Opportunities Exist To Strengthen       FLH and BIA routinely coordinate in TTP areas. However, FLH and BIA
FHWA’s Coordination, Guidance,          have opportunities to improve coordination on NEPA approvals and
and Oversight of the Tribal             final acceptance of TTP projects. We also found that while FLH has some
Transportation Program                  processes for reviewing the tribes’ management of transportation projects,
MH-2014-003                             its oversight is not based on sufficient data on tribes’ program risks and
10/30/2013                              needs. In addition, TTP is governed by an outdated regulation and unclear
                                        guidance in some key areas on how to implement that regulation, such as
                                        allowable uses of funds.

Grant Audits: Audits of Grantee Under Single Audit Act – 6 Reports

State of Iowa                           The State auditor’s work, as it related to DOT’s major programs, was
QC-2014-002                             acceptable with a deficiency. The audit work met the requirements of the
10/24/2013                              Single Audit Act, OMB Circular A-133, and DOT’s major programs. We
                                        found nothing to indicate that the State auditor’s opinions on DOT’s major
                                        programs were inappropriate or unreliable.

State of New Hampshire                  KPMG’s audit work, as it related to DOT’s major programs, was acceptable
QC-2014-005                             with deficiencies. KPMG met the requirements of the Single Audit Act,
11/13/2013                              OMB Circular A-133, and DOT’s major programs. We found nothing
                                        to indicate that the KPMG’s opinions on DOT’s major programs were
                                        inappropriate or unreliable.

State of Colorado                       The State auditor’s work, as it related to DOT’s major programs, was
QC-2014-012                             acceptable with a deficiency. The audit work met the requirements of the
12/09/2013                              Single Audit Act, OMB Circular A-133, and DOT’s major programs. We
                                        found nothing to indicate that the State auditor’s opinions on DOT’s major
                                        programs were inappropriate or unreliable.
	



    88  |  Statistic al Performance Data
Audits

State of Louisiana                    The Legislative Auditor’s work, as it related to DOT’s major programs, was
QC-2014-013                           Acceptable with a deficiency. The audit work met the requirements of
12/09/2013                            the Single Audit Act, OMB Circular A-133, and DOT’s major programs. We
                                      found nothing to indicate that the State Auditor’s opinions on DOT’s major
                                      programs were inappropriate or unreliable.

Puerto Rico Highways and                  Findings concerning the use of ARRA funds were identified. We
Transportation Authority (also listed recommend FHWA and FTA improve grantee oversight.
under the Federal Transit Administration)
SA-2014-023
01/23/2014

State of Minnesota (also listed       Findings concerning the use of ARRA funds were identified. We
under the Federal Aviation            recommend FAA and FHWA improve grantee oversight.
Administration)
SA-2014-026
01/23/2014

FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION

Internal Audits: Performance – 2 Reports

Improvements Needed in FMCSA’s        FMCSA had a backlog of conviction data on Mexican drivers due to a
Plan for Inspecting Buses at the      computer software issue, but it has now fixed the problems and no drivers
United States-Mexico Border           had to be disqualified after convictions were posted. In addition, FMCSA
MH-2014-007                           has taken steps to improve passenger carrier safety at the border but has
11/26/2013                            not taken sufficient actions to fully address our prior recommendations
                                      for improving its capacity to inspect buses. FMCSA updated its bus safety
                                      plan, but the plan does not adequately address bus inspection frequency or
                                      identify actions to eliminate inspection obstacles. FMCSA also worked with
                                      other agencies to identify alternative inspection space at certain locations,
                                      but it has not negotiated interagency agreements with Customs and Border
                                      Protection to establish standard bus inspection protocols, or completed
                                      facility and staffing assessments needed to fully address inspection safety
                                      and efficiency issues.




                                                      Semiannual Report to Congress  |  89
Audits

Actions Are Needed To Strengthen      While FMCSA has strengthened its controls to improve the quality of
FMCSA’s Compliance, Safety,           State-reported data used to assess carriers’ safety performance, the
Accountability Program                Agency has not fully implemented planned improvements to its processes
MH-2014-032                           for reviewing data correction requests and for ensuring that carriers
03/05/2014                            submit accurate information. In addition, FMCSA has not fully implemented
                                      the CSA enforcement intervention process nationwide; at the time of
                                      our report, only 10 States had fully implemented CSA enforcement
                                      interventions. Finally, FMCSA has limited documentation demonstrating
                                      it followed IT best practices and Federal guidance for its Carrier Safety
                                      Measurement System.

FEDERAL RAILROAD ADMINISTRATION

Internal Audits: Performance – 2 Reports

NEPA: FRA Coordinates as              FFRA coordinates with FHWA and FTA in compliance with NEPA and is
Required but Opportunities Exist To   working with OST to further enhance coordination on the Department’s
Modernize Procedures and Improve      multimodal projects. However, FRA’s implementing procedures are
Project Delivery                      outdated and limited. Because the Agency has not updated most of its
CR-2014-010                           implementing procedures since 1999, requirements from subsequent
12/05/2013                            statutes and recommended Council on Environmental Quality guidance
                                      have not been included. In addition, FRA is still developing standard
                                      operating procedures for its staff to use in NEPA process administration
                                      and to help ensure consistency in the environmental documentation that
                                      grantees submit.

FRA Continues To Make Progress        Since our first report, FRA continued to make progress, but 12 of its
Implementing PRIIA Responsibilities   29 PRIIA responsibilities remain incomplete. The Agency made progress on
but Faces Challenges With Rail        10 of these 12, including ensuring that Amtrak’s stations comply with the
Planning                              Americans with Disabilities Act and initiating research studies on biofuels
CR-2014-030                           and the use of bio-based technology for locomotives. However, FRA has
02/25/2014                            not initiated work on two responsibilities—conducting high-speed rail
                                      corridor studies for Congress and establishing a process for the designation
                                      and extension of high-speed rail corridors.




90  |  Statistic al Performance Data
Audits

Grant Audits: Audits of Grantee Under Single Audit Act – 2 Reports

Transbay Joint Powers                   We conducted a quality control review on the single audit performed by
Authority, CA                           VTD. We determined that VTD’s audit work was acceptable. The audit
QC-2014-001                             work met the requirements of the Single Audit Act, OMB Circular A-133,
10/24/2013                              and DOT’s major programs. We found nothing to indicate that VTD’s
                                        opinions on DOT’s major programs were inappropriate or unreliable.

Metercomm LLC, WA                       We recommend FRA improve grantee oversight. $302,125 questioned.
SA-2014-025
01/23/2014

FEDERAL TRANSIT ADMINISTRATION

Internal Audits: Performance – 2 Reports

Initial Assessment of FTA’s Oversight   FTA complied with DRAA requirements, made significant progress in
of the Emergency Relief Program         developing its Emergency Relief Program and allocating DRAA funds, and
and Hurricane Sandy Relief Funds        developed plans and procedures to conduct oversight. However, further
MH-2014-008                             actions are needed to more effectively allocate, obligate, and oversee relief
12/03/2013                              funds, and FTA has yet to fully address these challenges in its oversight
                                        plans and procedures. Finally, FTA has opportunities to consider lessons
                                        learned from Federal emergency responses and acquisition best practices
                                        that could help the Agency to effectively finalize its Emergency Relief
                                        Program and related guidance.

Metropolitan Washington Airports        MWAA lacks adequate controls to ensure that expenses claimed for
Authority Financial Management          funding on the FTA grant for phase 1 of the Dulles rail project are eligible
Controls Are Not Sufficient To          for reimbursement. Our review of 282 Dulles rail project transactions
Ensure Eligibility of Expenses on       determined that MWAA claimed $36 million in unsupported costs and
FTA’s Dulles Rail Project Grant         $119,000 in unallowable costs for Federal reimbursement on the project.
ZA-2014-021                             Given that $289 million in Federal grant funds remain available for
01/16/2014                              disbursement, improvements to MWAA’s financial management controls
                                        are critical for effective management of this Federal investment.




                                                        Semiannual Report to Congress  |  91
Audits

Grant Audits: Audits of Grantee Under Single Audit Act – 2 Reports

Commuter Rail Division of the        A finding concerning the use of ARRA funds was identified. We
Regional Transportation Authority    recommend FTA improve grantee oversight.
and Northeast Illinois Regional
Commuter Railroad Corporation
(METRA)
SA-2014-022
01/23/2014

Puerto Rico Highways and             Findings concerning the use of ARRA funds were identified. We
Transportation Authority (also       recommend FTA and FHWA improve grantee oversight.
listed under the Federal Highway
Administration)
SA-2014-023
01/23/2014

NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION
Internal Audits: Performance – 1 Report

Inspector General Review of Fiscal   During our review, no information came to our attention that would
Year 2013 Drug Control Funds and     reverse management’s assertions that the reports complied, in all material
Performance Summary Reporting        respects, with the requirements of the ONDCP Circular, Accounting of
FI-2014-029                          Drug Control Funding and Performance Summary, dated January 18, 2013.
01/31/2014




92  |  Statistic al Performance Data
Audits

NATIONAL TRANSPORTATION SAFETY BOARD
Internal Audits: Financial – 1 Report

Quality Control Review of Audited       We issued a quality control report on Leon Snead & Company PC’s audit
Financial Statements for Fiscal Years   of the National Transportation Safety Board’s financial statements for fiscal
2013 and 2012                           years 2013 and 2012. Leon Snead & Company, under contract to OIG,
QC-2014-011                             issued a clean (unmodified) audit opinion on these financial statements.
12/06/2013                              Leon Snead & Company reported one material weakness in internal
                                        control over financial reporting. Our quality control report disclosed no
                                        instances in which Leon Snead & Company did not comply, in all material
                                        respects, with auditing standards.

OFFICE OF THE SECRETARY OF TRANSPORTATION
Internal Audits: Performance – 1 Report

More Comprehensive Data Are             Flight delays fell by 33 percent from 2000 to 2012, and the number of
Needed To Better Understand the         cancellations nationwide has decreased by 56 percent at the 55 major
Nation’s Flight Delays and Their        airports. However, data limitations hinder the Department’s ability to track
Causes (also listed under the Federal   some of these delays or fully understand their causes. In addition, air carrier
Aviation Administration and the         scheduling practices have had a major impact on reducing the number of
Research and Innovative Technology      flight delays both nationwide and at specific airports, such as by increasing
Administration)                         scheduled gate-to-gate times and reducing flight volume. However, over-
AV-2014-016                             scheduling and congestion remain a problem at several major airports,
12/18/2013                              particularly in the New York area. Finally, FAA’s capacity benchmarks have
                                        proven useful for assessing capacity needs at major airports; however, the
                                        Agency has not shared them with outside stakeholders and the general
                                        public since 2004.




                                                        Semiannual Report to Congress  |  93
Audits

RESEARCH AND INNOVATIVE TECHNOLOGY ADMINISTRATION
Internal Audits: Performance – 1 Report

More Comprehensive Data Are             Flight delays fell by 33 percent from 2000 to 2012, and the number of
Needed To Better Understand the         cancellations nationwide has decreased by 56 percent at the 55 major
Nation’s Flight Delays and Their        airports. However, data limitations hinder the Department’s ability to track
Causes (also listed under the Federal   some of these delays or fully understand their causes. In addition, air carrier
Aviation Administration and the         scheduling practices have had a major impact on reducing the number of
Research and Innovative Technology      flight delays both nationwide and at specific airports, such as by increasing
Administration)                         scheduled gate-to-gate times and reducing flight volume. However, over-
AV-2014-016                             scheduling and congestion remain a problem at several major airports,
12/18/2013                              particularly in the New York area. Finally, FAA’s capacity benchmarks have
                                        proven useful for assessing capacity needs at major airports; however, the
                                        Agency has not shared them with outside stakeholders and the general
                                        public since 2004.

SAINT LAWRENCE SEAWAY DEVELOPMENT CORPORATION
Internal Audits: Financial – 1 Report

Quality Control Review of Audited       We issued a quality control report on Chiampou Travis Besaw & Kershner’s
Financial Statements for Fiscal Years   audit of SLSDC’s financial statements for fiscal years 2013 and 2012.
2013 and 2012                           Chiampou Travis Besaw & Kershner issued a clean (unqualified) audit
QC-2014-004                             opinion on these financial statements. Chiampou Travis Besaw & Kershner’s
11/7/2013                               report did not include any reportable deficiencies. Our quality control
                                        report disclosed no instances in which Chiampou Travis Besaw & Kershner
                                        did not comply, in all material respects, with auditing standards.




94  |  Statistic al Performance Data
Audits

OIG Congressional Testimonies
October 1, 2013 – March 31, 2014



FAA Can Improve the Effectiveness and Efficiency of Its     Before the House Transportation and
Certification Processes                                     Infrastructure Subcommittee on Aviation
CC-2014-003
10/30/2013

The Success of FAA’s Air Traffic Controller Optimum         Before the Senate Homeland Security and
Training Solution Relies on Sound Contracting and Program   Governmental Affairs Subcommittee on
Management Practices                                        Financial and Contracting Oversight
CC-2014-009
01/14/2014

FAA’s Implementation of the FAA Modernization and Reform    Before the House Transportation and
Act of 2012 Remains Incomplete                              Infrastructure Subcommittee on Aviation
CC-2014-010
02/05/2014




                                                     Semiannual Report to Congress  |  95
Audits

Unresolved Recommendations Over
6 Months Old
October 1, 2013 – March 31, 2014


Cited in Semiannual Report for April 1, 2010 - September 30, 2010
Information Security and Privacy Controls Over the Airmen Medical Support Systems       6/18/2010
(FI-2010-069)

Cited in Semiannual Report for October 1, 2010 - March 31, 2011		
FAA Did Not Ensure Revenue Was Maximized at Denver International Airport
                                                                                        2/28/2011
(AV-2011-057)

New York Flight Delays Have Three Main Causes, but More Work Is Needed To Understand
                                                                                       10/28/2010
Their Nationwide Effect (AV-2011-007)

FAA Faces Significant Risks in Implementing the Automatic Dependent Surveillance–
                                                                                       10/12/2010
Broadcast Program and Realizing Benefits (AV-2011-002)

Cited in Semiannual Report for April 1, 2011 - September 30, 2011		
More Rigorous Oversight Is Needed To Ensure Venice Municipal Airport Land Sales and     9/29/2011
Leases Are Used Appropriately (AV-2011-180)

Cited in Semiannual Report for October 1, 2011 – March 31, 2012
New Approaches Are Needed To Strengthen FAA Oversight of Air Carrier Training          12/20/2011
Programs and Pilot Performance (AV-2012-027)

Cited in Semiannual Report for April 1, 2012 – September 31, 2012		
Weaknesses in Program and Contract Management Contribute to ERAM Delays and Put
                                                                                        9/13/2012
Other Nextgen Initiatives At Risk (AV-2012-179)

FAA Has Not Effectively Implemented Its Wildlife Hazard Mitigation Program
                                                                                        8/22/2012
(AV-2012-170)




96  |  Statistic al Performance Data
Audits

Long-Term Success of ATSAP Will Require Improvements in Oversight, Accountability, and
                                                                                          7/19/2012
Transparency (AV-2012-152)

Status of Transformational Programs and Risks to Achieving Nextgen Goals (AV-2012-094)    4/23/2012

Cited in Semiannual Report for October 1, 2012 – March 31, 2013	
FAA and Industry Are Advancing the Airline Safety Act, but Challenges Remain To Achieve   1/31/2013
Its Full Measure (AV-2013-037)

Cited in Semiannual Report for April 1, 2013 – September 30, 2013		

Territory of American Samoa (SA-2013-132)                                                 9/13/2013


Federated States of Micronesia National Government (SA-2013-133)                          9/13/2013


National Railroad Passenger Corporation (AMTRAK) (SA-2013-134)                            9/13/2013

FHWA Is Monitoring Unexpended Recovery Act Highway Funds, but Some Funds May
                                                                                           9/4/2013
Remain Unused (MH-2013-122)

City of Tucson, AZ (SA-2013-107)                                                          7/12/2013


State of Illinois (SA-2013-115)                                                           7/12/2013

FAA’s Civil Aviation Registry Lacks Information Needed for Aviation Safety and Security
                                                                                          6/27/2013
Measures (FI-2013-101)

FAA Continues To Face Challenges in Implementing a Risk-Based Approach for Repair
                                                                                           5/1/2013
Station Oversight (AV-2013-073)

Weaknesses in the Department’s Disadvantaged Business Enterprise Program Limit
                                                                                          4/23/2013
Achievement of Its Objectives (ZA-2013-072)




                                                     Semiannual Report to Congress  |  97
Investigations

Financial Impact
October 1, 2013 – March 31, 2014


Type                                         Amount
Fines (and special assessments)            $1,051,914
Restitution                              $122,121,563
Recoveries                                 $4,823,411
Forfeitures                             $1,205,063,341
Total                                  $1,333,060,229




98  |  Statistic al Performance Data
Investigations

OIG Hotline Contacts
October 1, 2013 – March 31, 2014



Method of Contact                      Number
Email                                      2,357

Fax                                           7

Letters                                      76

Web                                          21

Telephone                                   593

Walk-ins                                      1

Total                                     3,055




                                   Semiannual Report to Congress  |  99
Investigations

Judicial and Administrative Actions
October 1, 2013 – March 31, 2014


Type of Action                                    Number
Indictments                                           34

Convictions                                           39

Years incarceration                                  52.4

Years supervised release                             44.9

Years probation                                      56.5

Hours community service                             1,390

Business debarment                                     5

Business suspension                                   10

Individual debarment                                   6

Individual suspension                                 15

Employee removal                                       1

Employee resigned/retired during investigation         2

Employee suspension                                    1

Employee counseling                                    2

Certification/License/Permit revoked/terminated        1

Corrective action taken                                4

Compliance agreement                                   5

Enforcement action taken                               2

Federal funds reduced                                  2



100  |  Statistic al Performance Data
Investigations

Investigative Workload and Judicial Referrals
October 1, 2013 – March 31, 2014


Investigative Workload

Current investigations                                               423

Investigations opened                                                127

Investigations closed                                                119



Judicial Referrals

Referred for criminal prosecution                                     63

Accepted for criminal prosecution                                     34

Declined for criminal prosecution                                     73

Referred for civil prosecution                                        17

Accepted for civil prosecution                                        10

Declined for civil prosecution                                         6




                                    Semiannual Report to Congress  |  101
Investigations

Profile of All Pending Investigations by
Case Type
As of March 31, 2014

                      Number of Aviation              Motor Transportation   Grant Procurement Workforce Employee
                     Investigations Safety   Hazmat   Carrier   Safety       Fraud    Fraud    Protection Integrity   Othera
FAA                     106         50         8        0          0         19          2         1         25         1
FHWA                    119          0         0        0          0         105         1         10         3         0
FMCSA                    90          0        14       44          2          0          1         22         7         0
FRA                      0           0         0        0          0          0          0         0          0         0
FTA                      41          0         0        0          0         35          1         5          0         0
MARAD                    6           0         0        0          0          0          2         0          4         0
NHTSA                    12          0         0        0          3          9          0         0          0         0
OIG                      4           0         0        0          0          0          0         0          4         0
OST                      3           0         0        0          1          0          1         1          0         0
Other OIG                1           0         0        0          0          0          0         0          0         1
PHMSA                    35          0        32        0          0          1          0         0          2         0
RITA                     5           0         0        0          0          2          1         0          2         0
Departmentwide           1           0         0        0          0          0          0         0          0         1
Totals                  423         50        54       44          6         171        9         39         47         3
Percentage             100%        12%       13%      10%         1%         40%       2%         9%        11%        1%

a	
     Includes computer intrusion cases




 102  |  Statistic al Performance Data
         peer review
       OIG’s auditing and investigations functions are subject to
 peer reviews in accordance with Government Auditing Standards and
the Attorney General Guidelines for Federal Office of Inspectors General
with statutory law enforcement authority. These peer reviews provide a
formal, objective assessment of OIG’s adherence to prescribed standards,
                      regulations, and legislation.




                                  Semiannual Report to Congress  |  103
PEER REVIEW



OIG was not the subject of a Council of the Inspectors   and management procedures for our investigative
General on Integrity and Efficiency (CIGIE) peer         function was in compliance with quality standards
review during this reporting period.                     established by CIGIE and Attorney General
                                                         guidelines, and no recommendations were made.
OIG’s Office of Audits was the subject of a CIGIE peer   The report was released on August 30, 2012.
review by DOD OIG in fiscal year 2013—the most
recent review conducted. DOD OIG concluded that          For the reports of the peer reviews conducted on
the system of quality control for our audit function     our office, go to http://www.oig.dot.gov/peer-
has been suitably designed and complied with             review.
to provide reasonable assurance of performing
and reporting in conformity with applicable              During this reporting period, OIG conducted a CIGIE
professional standards in all material respects.         peer review at DOI OIG’s investigative operations.
Accordingly, DOD OIG provided a “pass” rating, and       The final report was released December 19, 2013.
no recommendations were made. The report was             We reported that the system of internal safeguards
released on August 8, 2013.                              and management procedures for the DOI OIG’s
                                                         investigative functions was in compliance with
OIG’s Office of Investigations was the subject of a      quality standards established by CIGIE and Attorney
CIGIE peer review during fiscal year 2012 by the         General guidelines.
Department of the Treasury OIG. Treasury OIG
concluded that the system of internal safeguards




104 | Peer Review
         MISSION AND
        ORGANIZATION
The Office of Inspector General is committed to fulfilling its statutory
responsibilities and supporting Congress, the Secretary, Department
leadership, and the public in achieving a safe, efficient, and effective
                        transportation system.




                                   Semiannual Report to Congress  |  105
MISSION AND OR GANIZ ATION



The Office of Inspector General for the Department             Economic Analysis; Financial and Information
of Transportation was created by Congress through              Technology; and Acquisition and Procurement.
the Inspector General Act of 1978. The act sets several
goals for OIG:                                            •	   The Office of the Principal Assistant Inspector
                                                               General for Investigations supervises and
•	   To conduct or supervise objective audits and              conducts OIG investigative activities related
     investigations of the Department’s programs and           to DOT programs and operations through its
     operations;                                               headquarters and seven major regional offices.
                                                               The headquarters office conducts nationwide
•	   To promote economy, effectiveness, and                    special investigations and analyses as well as
     efficiency within the Department;                         manages the OIG Hotline Complaint Center and
•	   To prevent and detect fraud, waste, and abuse in          activities generated by complaints.
     the Department’s programs;                           •	   The Office of the Assistant Inspector General
•	   To review existing and proposed laws or                   for Legal, Legislative, and External Affairs
     regulations affecting the Department and make             provides a full range of professional legal services
     recommendations about them;                               and advice, facilitates communications with
                                                               Congress, and manages public and external
•	   To keep the Secretary of Transportation and               affairs.
     Congress fully informed about problems in
     Departmental programs and operations.                •	   The Office of the Assistant Inspector
                                                               General for Administration is divided into
The Inspector General is committed to fulfilling its           four suboffices: the Office of Procurement and
statutory responsibilities and assisting members of            Administrative Services, the Office of Budget
Congress, the Secretary, senior Department officials,          and Financial Management, the Office of
and the general public in achieving a safe, efficient,         Human Resources, and the Office of Information
and effective transportation system. OIG’s audits and          Technology Management.
investigations offices and three support offices work
together to fulfill its mission:                          •	   The Office of Quality Assurance Reviews
                                                               and Internal Affairs, under the direction of
•	   The Office of the Principal Assistant Inspector           the Deputy Inspector General, ensures that
     General for Auditing and Evaluation supervises            internal operations and functions are performed
     and conducts all audit activities related to              objectively and in an efficient and effective
     DOT programs and operations through its                   manner.
     five suboffices: Aviation; Highway and Transit;
     Rail, Maritime, Hazmat Transport Audits, and




106  |  Mission and Organiz ation
Inspector General
Deputy Inspector General
•	 Chief of Staff
•	 Director, Quality Assurance Reviews and Internal Affairs



Principal Assistant                    Principal Assistant                Assistant Inspector   Assistant Inspector
Inspector General                      Inspector General for              General for           General for Legal,
for Investigations                     Auditing and Evaluation            Administration        Legislative, and
                                                                                                External Affairs
Deputy Assistant                       Assistant Inspector General for
Inspector General for                  Aviation Audits
Investigations
                                       •	 Deputy Assistant Inspector
                                          General for Aviation Audits


                                       Assistant Inspector General
                                       for Financial and Information
                                       Technology Audits

                                       Assistant Inspector General for
                                       Highway and Transit Audits
                                       •	 Deputy Assistant Inspector
                                          for Highway and Transit
                                          Audits


                                       Assistant Inspector General
                                       for Rail, Maritime, and Hazmat
                                       Transport Audits, and Economic
                                       Analysis


                                       Assistant Inspector General for
                                       Acquisition and Procurement
                                       Audits




                                                                        Semiannual Report to Congress  |  107
CONTAC TS

INSPECTOR GENERAL
Calvin L. Scovel III……………………………………………………………………………………………… (202) 366-1959

DEPUTY INSPECTOR GENERAL
Ann Calvaresi Barr……………………………………………………………………………………………… (202) 366-6767

PRINCIPAL ASSISTANT INSPECTOR GENERAL FOR INVESTIGATIONS
Timothy Barry…………………………………………………………………………………………………… (202) 366-1967

PRINCIPAL ASSISTANT INSPECTOR GENERAL FOR AUDITING AND EVALUATION
Lou Dixon……………………………………………………………………………………………………… (202) 366-1427

ASSISTANT INSPECTOR GENERAL FOR LEGAL, LEGISLATIVE, AND EXTERNAL AFFAIRS
Brian A. Dettelbach……………………………………………………………………………………………… (202) 366-8751

ASSISTANT INSPECTOR GENERAL FOR ADMINISTRATION
Susan Dailey…………………………………………………………………………………………………… (202) 366-1748

CHIEF OF STAFF
Madeline Chulumovich………………………………………………………………………………………… (202) 366-6767

DEPUTY ASSISTANT INSPECTOR GENERAL FOR INVESTIGATIONS
William Owens………………………………………………………………………………………………… (202) 366-7100

ASSISTANT INSPECTOR GENERAL FOR AVIATION AUDITS
Jeffrey Guzzetti………………………………………………………………………………………………… (202) 366-0500

DEPUTY ASSISTANT INSPECTOR GENERAL FOR AVIATION AUDITS
Matt Hampton………………………………………………………………………………………………… (202) 366-1987

ASSISTANT INSPECTOR GENERAL FOR HIGHWAY AND TRANSIT AUDITS
Joe Comé……………………………………………………………………………………………………… (202) 366-5630

DEPUTY ASSISTANT INSPECTOR GENERAL FOR HIGHWAY AND TRANSIT AUDITS
Thomas Yatsco………………………………………………………………………………………………… (202) 366-5630

ASSISTANT INSPECTOR GENERAL FOR RAIL, MARITIME, AND HAZMAT TRANSPORT AUDITS,
AND ECONOMIC ANALYSIS
Mitchell Behm…………………………………………………………………………………………………… (202) 366-9970

ASSISTANT INSPECTOR GENERAL FOR FINANCIAL AND INFORMATION TECHNOLOGY AUDITS
Louis King……………………………………………………………………………………………………… (202) 366-1407

ASSISTANT INSPECTOR GENERAL FOR ACQUISITION AND PROCUREMENT AUDITS
Mary Kay Langan-Feirson……………………………………………………………………………………… (202) 366-5225




108 | Contacts
To report fraud, waste, or abuse
at the U.S. Department of
Transportation, please contact
the OIG Hotline:



1-800-424-9071
hotline@oig.dot.gov
